<html>
<title> - PROMOTING THE AMERICAN DREAM OF HOMEOWNERSHIP THROUGH DOWNPAYMENT ASSISTANCE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                      PROMOTING THE AMERICAN DREAM
                        OF HOMEOWNERSHIP THROUGH
                         DOWNPAYMENT ASSISTANCE
=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 08, 2003

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 108-21









                       U.S. GOVERNMENT PRINTING OFFICE
90-836                     WASHINGTON : 2003
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    MICHAEL G. OXLEY, Ohio, Chairman

JAMES A. LEACH, Iowa                 BARNEY FRANK, Massachusetts
DOUG BEREUTER, Nebraska              PAUL E. KANJORSKI, Pennsylvania
RICHARD H. BAKER, Louisiana          MAXINE WATERS, California
SPENCER BACHUS, Alabama              CAROLYN B. MALONEY, New York
MICHAEL N. CASTLE, Delaware          LUIS V. GUTIERREZ, Illinois
PETER T. KING, New York              NYDIA M. VELAZQUEZ, New York
EDWARD R. ROYCE, California          MELVIN L. WATT, North Carolina
FRANK D. LUCAS, Oklahoma             GARY L. ACKERMAN, New York
ROBERT W. NEY, Ohio                  DARLENE HOOLEY, Oregon
SUE W. KELLY, New York, Vice Chair   JULIA CARSON, Indiana
RON PAUL, Texas                      BRAD SHERMAN, California
PAUL E. GILLMOR, Ohio                GREGORY W. MEEKS, New York
JIM RYUN, Kansas                     BARBARA LEE, California
STEVEN C. LaTOURETTE, Ohio           JAY INSLEE, Washington
DONALD A. MANZULLO, Illinois         DENNIS MOORE, Kansas
WALTER B. JONES, Jr., North          CHARLES A. GONZALEZ, Texas
    Carolina                         MICHAEL E. CAPUANO, Massachusetts
DOUG OSE, California                 HAROLD E. FORD, Jr., Tennessee
JUDY BIGGERT, Illinois               RUBEN HINOJOSA, Texas
MARK GREEN, Wisconsin                KEN LUCAS, Kentucky
PATRICK J. TOOMEY, Pennsylvania      JOSEPH CROWLEY, New York
CHRISTOPHER SHAYS, Connecticut       WM. LACY CLAY, Missouri
JOHN B. SHADEGG, Arizona             STEVE ISRAEL, New York
VITO FOSSELLA, New York              MIKE ROSS, Arkansas
GARY G. MILLER, California           CAROLYN McCARTHY, New York
MELISSA A. HART, Pennsylvania        JOE BACA, California
SHELLEY MOORE CAPITO, West Virginia  JIM MATHESON, Utah
PATRICK J. TIBERI, Ohio              STEPHEN F. LYNCH, Massachusetts
MARK R. KENNEDY, Minnesota           ARTUR DAVIS, Alabama
TOM FEENEY, Florida                  RAHM EMANUEL, Illinois
JEB HENSARLING, Texas                BRAD MILLER, North Carolina
SCOTT GARRETT, New Jersey            DAVID SCOTT, Georgia
TIM MURPHY, Pennsylvania              
GINNY BROWN-WAITE, Florida           BERNARD SANDERS, Vermont
J. GRESHAM BARRETT, South Carolina
KATHERINE HARRIS, Florida
RICK RENZI, Arizona

                Robert U. Foster, III, Staff Director

           Subcommittee on Housing and Community Opportunity

                     ROBERT W. NEY, Ohio, Chairman

MARK GREEN, Wisconsin, Vice          MAXINE WATERS, California
    Chairman                         NYDIA M. VELAZQUEZ, New York
DOUG BEREUTER, Nebraska              JULIA CARSON, Indiana
RICHARD H. BAKER, Louisiana          BARBARA LEE, California
PETER T. KING, New York              MICHAEL E. CAPUANO, Massachusetts
WALTER B. JONES, Jr., North          BERNARD SANDERS, Vermont
    Carolina                         MELVIN L. WATT, North Carolina
DOUG OSE, California                 WILLIAM LACY CLAY, Missouri
PATRICK J. TOOMEY, Pennsylvania      STEPHEN F. LYNCH, Massachusetts
CHRISTOPHER SHAYS, Connecticut       BRAD MILLER, North Carolina
GARY G. MILLER, California           DAVID SCOTT, Georgia
MELISSA A. HART, Pennsylvania        ARTUR DAVIS, Alabama
PATRICK J. TIBERI, Ohio
KATHERINE HARRIS, Florida
RICK RENZI, Arizona
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 08, 2003...............................................     1
Appendix:
    April 08, 2003...............................................    47

                               WITNESSES
                        Tuesday, April 08, 2003

Couch, Robert M., President and CEO, New South Federal Savings 
  Bank, Birmingham, Alabama, on behalf of the Mortgage Bankers 
  Association of America.........................................    31
Gay, Lori R., Executive Director, Los Angeles Neighborhood 
  Housing Services, Los Angeles, California......................    32
Griffin, Darrell V. Sr., Division Chief, Housing Services 
  Division, City of Jacksonville, Florida........................    34
Hilgers, Paul, Director, Neighborhood Housing and Community 
  Development Department, City of Austin, Texas..................    36
Martinez, Hon. Mel, Secretary, Department of Housing and Urban 
  Development....................................................    11
Nickerson, Craig S., Vice President, Community Development and 
  Lending, Freddie Mac, Washington, DC...........................    38
Thompson, Barbara, Executive Director, National Council of State 
  Housing Agencies...............................................    40

                                APPENDIX

Prepared statements:
    Oxley, Hon. Michael G........................................    48
    Carson, Hon. Julia...........................................    49
    Clay, Hon. Wm. Lacy..........................................    51
    Lee, Hon. Barbara............................................    53
    Rogers, Hon. Mike............................................    56
    Waters, Hon. Maxine..........................................    58
    Couch, Robert M..............................................    59
    Gay, Lori R..................................................    63
    Griffin, Darrell V. Sr.......................................    73
    Hilgers, Paul................................................    77
    Martinez, Hon. Mel...........................................    84
    Nickerson, Craig S...........................................    88
    Thompson, Barbara............................................    93

              Additional Material Submitted for the Record

Consumer Mortgage Coalition, prepared statement..................   102
National Association of Realtors, prepared statement.............   103














                      PROMOTING THE AMERICAN DREAM
                        OF HOMEOWNERSHIP THROUGH
                         DOWNPAYMENT ASSISTANCE

                              ----------                              


                         Tuesday, April 8, 2003

             U.S. House of Representatives,
 Subcommittee on Housing and Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:09 p.m., in 
Room 2128, Rayburn House Office Building, Hon. Robert Ney 
[chairman of the subcommittee] presiding.
    Present: Representatives Ney, Miller, Tiberi, Harris, 
Renzi, Waters, Velazquez, Carson, Lee, Capuano, Watt, Clay, 
Frank (ex officio), Miller, Scott and Davis.
    Chairman Ney. [Presiding.] The subcommittee will come to 
order.
    This is a hearing on the American dream downpayment 
initiative. I want to welcome Secretary Martinez. Many times he 
has been to the Hill and we appreciate all his ideas and work 
on a lot of important issues to Americans.
    Today, we are here to examine the president's American 
dream downpayment initiative, which is designed to assist 
thousands of low-income families to realize the American dream 
of homeownership. The benefits of homeownership for families, 
communities and the nation as a whole, as all of you know, are 
profound. Homeownership has been the single biggest creator of 
wealth in our nation.
    When the stock markets were declining, home values were 
rising. When citizens own homes, they establish roots and 
therefore have a greater stake in their communities, growth, 
safety and development. As I said today at the press 
conference, homeownership is America. It is the vital part of 
American life. While the national homeownership rate has 
steadily risen--it is at 68 percent, and that is tremendous--
there are sections of population for whom homeownership remains 
unattainable. That is something that we cannot tolerate as a 
country or society. In fact, the homeownership rate for African 
Americans and Hispanics is less than 50 percent.
    Clearly, more can and should be done to help all of our 
citizens realize the dream of home ownership. The president has 
committed to this nation to create 5.5 million new minority 
homeowners by the end of the decade. In June, 2001, President 
Bush proposed establishing the American dream downpayment fund, 
and it is again one of the cornerstones of the Administration's 
homeownership agenda in the 2004 budget.
    The Millennial Housing Commission report recognizes the 
lack of savings and the inability to afford the downpayment and 
closing costs on a house as one of the biggest barriers to home 
ownership. A lot of people can struggle and they can go out to 
work and the families work, and they can make the payments, but 
the downpayment is truly a dilemma. The Millennial Housing 
Commission also underscored the importance of homeownership 
rates to a growing economy. On page 21 of the report, the 
commission states, ``lagging minority homeownership rates are a 
serious concern. Minority households are expected to account 
for two-thirds of household growth over the coming decade. 
Improving the ability of such households to make the transition 
to homeownership will be an especially important test of the 
nation's capacity to create economic opportunity for minorities 
and immigrants, and to build strong, stable communities.''
    The American dream downpayment fund will provide $200 
million in grants to help homebuyers with the downpayment and 
closing costs. This has the potential of assisting 40,000 
families annually to achieve the dream of homeownership. The 
initiative would make available subsidy assistance averaging 
$5,000 per family to help low-income, first-time homebuying 
families. To be eligible, the recipients' annual income may not 
exceed 80 percent of the area median income.
    I really want to commend the president and Secretary 
Martinez for pushing this great initiative. It is a good thing 
to do, as I mentioned, economically, but it is the right thing 
to do for the citizens of this country, our constituents, and 
people that have immigrated into the United States, to help 
them achieve a piece of the American dream. I also want to 
commend Congressman Rogers in the 107th Congress. I was a co-
author with him. I want to note Congresswoman Katherine Harris 
from Florida, Congressman Davis, for their leadership on this 
important issue and for introducing H.R. 1276, the American 
Dream Downpayment Act.
    Again, we are fortunate to have the Secretary with us. 
Without objection, I would also like to include the testimony 
of the National Association of Realtors, who are not with us 
today, in the record. Hearing no objection, it will be part of 
the record. Also without objection, the statements of all 
members will be included in the record. Hearing no objections, 
they will be included in the record.At this time, I would turn 
to my colleague from Massachusetts, Mr. Frank.
    Mr. Frank. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I particularly appreciate your 
making an exception to the normal rule and appearing here 
before a subcommittee. We may call on you from time to time in 
that regard. We have big subcommittees on this committee. So we 
are entitled.
    Secretary Martinez. Happy to be here, sir.
    Mr. Frank. I want to express my support for the notion that 
we should make some new money available for home ownership. 
Obviously, our laws favor home ownership. When low-income 
individuals and low-income minority group members are having 
difficulty buying homes, they are disadvantaged even vis-a-vis 
renting, because of the way that works. I am particularly 
pleased, and I had a chance to speak to the main sponsor, the 
gentlewoman from Florida, and I think we are in agreement that 
this is additional money. I raise that because in the last 
Congress, there was a proposal that came forward that would 
have earmarked existing HOME money for this purpose. That did 
not seem to many of us a good idea. The HOME program is a good 
program and we did not want to interfere and the Mayors 
objected to that.
    My understanding is we are talking now about an additional 
authorization of funding. I think that would get virtually 
unanimous support. I hope that we will stick with it. As a 
matter of fact, as I recall in the housing bill that cleared 
the committee last year, there was an authorization of $200 
million in new money for home ownership. That housing bill 
disappeared into the ether, so it never got anywhere, but I 
would look forward to doing this. So I just want to make that 
explicit, I believe it is something about which we are all in 
agreement. This I think should go very quickly.
    But Mr. Secretary, I do want to take advantage of your 
being here to raise an issue which was just called to my 
attention by the new Governor of Massachusetts. I do not expect 
you to have an off the top of the head answer, but I ask you to 
look at this. We literally a couple of hours ago received a 
kind of crisis phone call from Mr. Micciche, who is the 
Director of federal relations, about instructions that were 
given regarding Section 8. Now, Congress adopted in the 
appropriations bill this year what I believe are unduly 
restrictive language about Section 8 dealing with over-leasing. 
The problem is that, as you have pointed out, that you do not 
want Section 8 going under-utilized, and you have said if 
people do not utilize them, they are going to lose them.
    The housing authorities, and this is my Republican 
Governor's people, are telling us that you cannot always hit 
100 percent right on the mark. So if sometimes you are a little 
under and sometimes you go a little over to compensate, you 
average out. But language we put into the appropriations bill 
says you can never go over. Well, since you rarely can hit 100 
percent, this means you can go under and not over, but that 
also then means that you lose out because you will always 
average out to less, and we are going to have a declining cycle 
here. Now, I realize that part of the problem was the 
legislation, which some of us tried to get changed. But it does 
not seem to me that the legislation in the appropriations 
bill--not done by the authorizing committee--requires this 
balance to be so tightly done month by month. The problem, as I 
understand it from my Governor, is that HUD is now telling them 
that we are going to take this balance month by month, and if 
you over-lease at all in one month, then you are frozen.
    They, at least it seems to me, ought to be given the 
ability to do this on a yearly basis. That would also give us 
the time, frankly, to revisit this in the appropriations bill, 
because I think we have put them in an impossible bind. That 
is, as I said, they can never over-lease to make up for under-
leasing, and since you can never hit 100 percent exactly, we 
are going to have a problem. So I am going to be sending you a 
letter, and I hope you can look into this, to urge you to get a 
little more flexibility here. Let's not do this month by month, 
and let's see if we can work with you and with the Governors, 
because I am told other States are having the same sort of 
situation, to see if we can get some flexibility into these 
appropriations bill.
    As I said, I have had this for a couple of hours. You have 
just had it for a couple of minutes. But I do not think 
Governor Romney is an alarmist on this and I do not think he is 
interested in wasting money. I think they have pointed to a 
problem which many of us foresaw with the appropriations bill. 
We opposed that language and we have been unfortunately proven 
righter than we wanted to be, sooner than we wanted to be. So 
we will be looking to work with you on that.
    Secretary Martinez. Thank you. Yes, I will reply to you.
    Chairman Ney. Thank you.
    The gentlelady from Florida.
    Ms. Harris. Thank you, Mr. Chairman. This is an exciting 
time for all of us. I want to express my appreciation to you, 
Mr. Chairman, for your enthusiasm in hosting this hearing 
today. As well, I want to thank all the members of the panel 
for appearing, particularly my dear friend from Florida, 
Secretary Martinez. I also want to thank Congressman Mike 
Rogers for his sponsorship of the bill and the great idea last 
year, as well as my colleague, the gentleman from Massachusetts 
for his support. I am really enthusiastic about the 
opportunities that this bill is going to provide.
    Today marks an important milestone in our nation's efforts 
to address the moral imperative of extending affordable quality 
housing opportunities to every American. H.R. 1276, the 
American Dream Downpayment Act, implements President Bush's 
visionary plan to extend the dream of home ownership to tens of 
thousands of low-income families and individuals across our 
nation. I have consulted with housing advocates throughout my 
district, and have heard that a great number of low-income 
Americans could afford that monthly mortgage payment, yet 
cannot overcome that initial impediment, that obstacle of the 
downpayment and closing costs that are associated with the 
standard residential loans.
    This legislation creates new funding authority to remove 
barriers by annually providing an estimated 40,000 low-income 
families and individuals with an average subsidy of $5,000 to 
assist their buying their first home. I understand that there 
are concerns that exist regarding whether the formula that HUD 
presently has proposed for distributing grants adequately 
reflects the jurisdiction's past efforts in promoting home 
ownership. I share those concerns and I anticipate that our 
witnesses will help us address them here today.
    Let us not, however, permit issues that we can address 
through the legislative process to divert our attention from 
the extraordinary potential that this bill creates in terms of 
the opportunity to strengthen our communities in a nation that 
enjoys an unprecedented level of wealth and material comfort, 
that is unprecedented in human history. This state of affairs 
is unconscionable. We can no longer tolerate circumstances in 
which a steep entry fee stands between thousands of low-income 
Americans and the dignity, stability and economic empowerment 
of home ownership.
    I look forward to our consideration of this critical 
legislation today.
    Thank you, Mr. Chairman.
    Chairman Ney. I thank the gentlelady, and our ranking 
member.
    The gentlelady from California.
    Ms. Waters. Thank you very much, Mr. Chairman. I am 
delighted to be here and to have you hold this meeting. I thank 
the Secretary for being here.
    As you know, we held a hearing on the faith-based 
initiative, and they failed to invite you. So we were looking 
forward to you coming because we thought we would have some 
opportunities first to just let you know how strongly some of 
us feel about the civil rights concerns of the faith-based 
initiative and the fact that we do not want to see our 
religious organizations basically discriminate in hiring 
against anybody in a program such as it has been designed.
    Secondly, we are concerned about churches and religious 
organizations who already have 501(c)(3)s who can do this. They 
do not need another initiative. They can use their 501(c)(3)s, 
but they will be competing, for example, with CDBG money with 
some of the 501(c)(3)s that are already out there struggling 
and competing. So we just want you to know about our concerns 
and to take a look at all of that, and be sure that you pay 
attention to ways by which you can provide some technical 
assistance to the organizations that will help them become 
competitive, and then urge the Administration to put some more 
money in so that we will not all be competing for the same bit 
of CDBG-type dollars with new entities that we empower through 
technical assistance. So those are our concerns.
    Having said that, you are here today also to talk about 
this downpayment home ownership program, et cetera, et cetera. 
As you know, you may have heard, I think that our financial 
institutions should have more products. One of those products 
should be no downpayment or very little downpayment. We have 
not done enough work. We have brought down downpayments in any 
number of ways, and we have programs with low downpayment--3 
percent, 2 percent--rather than 10 percent. We have that 
already, and I think we ought to be encouraging our private 
institutions, our financial institutions to have more products 
where you have no downpayments.
    I am worried about this idea before us today because again 
there is no new money. We already have the HOME program, I 
believe it is, where the cities are using some of their dollars 
to reduce the cost of the downpayment, but they have 
flexibility in the use of these dollars, so that they can use 
it any number of ways. They have the handy-person program to 
fix up the homes. They have other kinds of things that they do. 
We do not want to limit that flexibility and we want to 
encourage them to keep on doing what they are doing. Again, if 
you want a program that is basically going to be a duplication 
of something that is already going on, you have got to get more 
money and not rob from Peter to pay Paul.
    So I welcome your comments and your thoughts about it. I am 
delighted that you are here. I know that you have got your 
hands full. We do not make it any easier for you, but it comes 
with the territory. I thank you for being here today.
    Secretary Martinez. Thank you.
    Ms. Waters. You are welcome.
    Chairman Ney. I want to thank the gentlelady, the ranking 
member, for her comments.
    The gentleman from Arizona.
    Mr. Renzi. Thank you, Mr. Chairman. Good to see you again, 
Mr. Secretary.
    I want to compliment my colleague from Florida for helping 
develop this legislation which I think is a major step in 
reaching so many of the low-income prospective homebuyers and 
allowing Americans to achieve that American dream and find 
security in their neighborhoods. You look at the root of our 
society, it is about family and homes and community first, and 
then we build up from there and becomes states and a nation. So 
thank you for going to the root of what makes us a nation.
    I want to thank you for coming to Arizona. You came at a 
time when many of the people in our community down in the Casa 
Grande area, many of our Hispanics, our native Americans were 
worried about their own ability to achieve and get loans. I 
wanted to ask you, would you be able to see or foresee in the 
future through this work and similar legislation, if we are 
going to be able to have the downpayment apply to the old FHA 
235 program, which, you know, when I was just out of college 
with a bunch of kids, I got an FHA 235 program; bought a home. 
I eventually borrowed against the home and started my first 
business and eventually employed several Arizonans. So it is 
through home ownership and being able to leverage that home 
ownership with the equity in there that I was able to create a 
small business and eventually be fortunate enough to serve 
here.
    So would we be able, do you think, to use the downpayment 
program in some of the specialty programs, or would it have to 
be traditional mortgages?
    Secretary Martinez. No, sir. They would be available for 
all types of arrangements and opportunities. It would be in 
combination with everything else that is available in the 
assistance for families who want to reach home ownership. So it 
would not be instead of, but it would be in addition to all of 
the other available programs.
    Mr. Renzi. So we here we have a means to provide over $200 
million.
    Secretary Martinez. Of new money, by the way.
    Mr. Renzi. New money.
    Secretary Martinez. It is totally new money.
    Mr. Renzi. Right. In addition to $200 million of new 
money----
    Secretary Martinez. Absolutely; totally.
    Ms. Waters. Would the gentleman yield?
    Mr. Renzi. I would be happy to yield.
    Ms. Waters. We need to straighten this point out. Wait just 
a minute. We did not see this new money in the budget.
    Secretary Martinez. It is absolutely in the budget. It is 
$200 million of new money. It does not take one dime from 
current HOME allocations, but it is totally a new money 
program. It is $75 million in the 2003 budget. Our request at 
that time was $200 million. This time, our request again is 
$200 million, even though only $75 million was funded in 2003. 
Every dime of that money is new dollars; totally.
    Chairman Ney. We have 10 seconds remaining. Very 
interesting Q&A on opening statement, but that is good.
    [Laughter.]
    Maybe it is a new approach we will take. We can get more 
done.
    Secretary Martinez. I just did not want to lose the 
opportunity to clarify what I think is a very important point.
    Chairman Ney. It was entertaining. I thank the gentleman 
from Arizona.
    The gentleman from North Carolina.
    Mr. Miller. Thank you, Mr. Chairman.
    I also agree wholeheartedly with the purpose of this 
legislation. Homeownership is a huge step into the middle class 
for a lot of low-income families. It is the most important 
investment most American families will ever make, and I 
certainly want to help make homeownership available for lower 
income families. My only concern is the one that we dwelt on 
already, but I would like to continue to dwell on it, and that 
is the importance of this being new money; that this was not 
going to be another shoe that drops later on whether in this 
budget or the next budget or the year after, that there will 
not be another instance of a working program being cut back or 
even eliminated to create a block grant program with less 
money.
    I have very much enjoyed the discussion so far. I have 
heard the phrase ``totally new money'' and ``every dime of new 
money'' about 15 times in a 30-second period. I was very 
pleased to hear that. If the rest of today's hearing continues 
in that pace, it would be a wonderful afternoon.
    Thank you, Mr. Chairman.
    Chairman Ney. I thank the gentleman.
    Now, the gentleman from Georgia.
    Mr. Scott. Thank you very much, Mr. Chairman. I certainly 
appreciate this opportunity and am delighted to be a cosponsor 
of this legislation, along with my colleague from Florida, 
Katherine Harris. It is certainly a delight working with her on 
this and I commend her for providing leadership on this 
important issue.
    I want to thank the distinguished panel of witnesses that 
are before us today, and certainly Secretary Martinez, thank 
you for coming before this committee. I signed on to cosponsor 
H.R. 1276 because we have to eliminate barriers to 
homeownership for low-income families. The most recent issue of 
Business Week highlights a new Ohio state study that says 
homeownership helps boost school achievement and reduce 
behavioral problems of students, compared to those children who 
live in rental units. The barriers to minority homeownershp 
study that was recently done by your organization, HUD, pointed 
out some very, very startling facts.
    Your study showed that the nation's overall homeownership 
rate is 68 percent. However, the homeownership rate for African 
Americans, Hispanics and other non-Hispanic minorities is only 
49 percent. Between 1994 and 2001, the gap between these two 
homeownership rates has only narrowed by just 1.5 percentage 
points. There is something very morally wrong with that. The 
report concluded that if this persistent gap in minority 
homeownership is to be substantially narrowed, then the 
structural barriers to homeownership, particularly lack of 
capital for downpayment and closing costs must be eliminated.
    In addition to helping more families own their homes, this 
proposal is also expected to strengthen communities by 
enlarging the number of stakeholders and thereby stabilizing 
and revitalizing our neighborhoods. Nearly half of all minority 
children are missing out in the benefits of living in a more 
structured home environment. These are underpinnings in our 
society that could be devastating for the future of our nation. 
In addition to providing downpayment assistance, we also must 
educate consumers to help prevent predatory lending practices 
and provide continued homeowner counseling.
    I certainly look forward to hearing from you on these 
issues and the panel. They are very important issues. I also 
want to ask you to, if we can find time, I too want to stress 
the importance of why we are in the faith-based initiatives--
doing away with the protections against discrimination. We held 
a hearing and you were not there. I understand you had other 
pressing matters. But I do hope that you may find a way while 
you are here, because I would like to know why, and certainly 
hope we will be allowed to do that.
    One other point I do want to make while I am here, and I 
will finish this opening statement, is that I would also like 
to again impress upon you the importance of maintaining and 
helping us to revitalize HOPE Six.
    Thank you very much.
    Chairman Ney. I thank the gentleman.
    The gentleman from California.
    Mr. Miller. Thank you, Mr. Chairman.
    I agree with a lot of what the previous speaker had to say. 
In fact, I think our housing market tends to discriminate 
against everybody who wants entry-level housing. It goes beyond 
race. The entire system, specifically in California, is anti-
opportunity for individuals who want to own a home. I have a 
friend who has a nonprofit. It is called Heart, in Rancho 
Cucamonga, California. Since 1998, they have given downpayments 
to 40,000 families. Many of these families might be just a 
mother with children, people who have never been in a home 
before, just to help individuals overcome the obstacles of 
downpayments that they generally do not have, and closing 
costs, which are a major issue in this country.
    In this committee, we talk about a lot of things that are 
important and a lot of things that are good, but in many ways 
we only scratch at the problem that people face in this country 
trying to gain the principles and the concept of homeownership. 
I was a developer for over 30 years, and many of my good 
friends are developers today. The largest obstacle that they 
face today trying to provide affordable housing is government. 
It is really sad because many things we do, they sound good, 
they feel good, we hug each other and pat each other on the 
back when we get through doing it, and when you place that law 
into reality, it just stifles the private sector.
    A lot of things that we should do, I think we fail to do. 
We look at Section 8 vouchers, and I agree there is absolute 
need for Section 8 housing in this country, but the problem is 
we have no where for people to move out of Section 8 housing 
into because there is no affordable move-up market beyond 
Section 8, because the jump is so dramatic in many cases that 
when we get people into Section 8, they are relegated to that 
almost forever, because they have no place to move to. If we 
are ever going to be able to provide entry-level affordable 
housing in this country, we have to look to the next level of 
marketplace and try to figure out how to make that affordable 
also. That is a goal I have had.
    I have been very involved in the endangered species act and 
many other issues out there that I believe are just breaking 
the back of industry when they try to apply affordable housing 
in reality rather than in concept. I have been looking at 
predatory lending in previous years and I believe predatory 
lending is an abhorrent process, but I think we need to be very 
cautious not to mix sub-prime with predatory, because there is 
a sub-prime market that there is a huge need for and a demand 
for. If we start blurring the concept of predatory and sub-
prime, I believe we can hurt people that we are genuinely 
trying and attempting to help.
    I am looking forward, Mr. Secretary, to your presentation 
today at this hearing, and I commend the chairman for offering 
us this opportunity.
    Thank you and I yield back the balance of my time.
    Chairman Ney. I thank the gentleman.
    The gentleman from Alabama.
    Mr. Davis. Thank you, Mr. Chairman. Mr. Secretary, good 
afternoon to you.
    Let me say at the outset that I am one of the 35 cosponsors 
of this legislation. In that spirit, let me thank my friend, 
the gentlelady from Florida for her leadership. One of the 
happy things about this job is that we occasionally do get to 
reach across the aisle and form a bipartisan alliance. We do 
not get to do it every day. The nature of the institution is 
that we should not do it every day, but occasionally we do get 
to do it. If I can pause on this for just a moment, I do not 
think there is any member of this House of Representatives who 
frankly has probably been over the course of the last several 
years victimized more by the ugly side of bipartisanship than 
my friend from Florida. It is a compliment to her. It is a 
compliment to her spirit that she has chosen this issue as one 
of the first statements that she makes as a member of Congress, 
one of the first pieces of legislation that she introduces. It 
is also a testament to the fact that sometimes you have to look 
beyond the labels in this city. So Ms. Harris, I thank you for 
your leadership.
    Let me welcome my friend Rob Couch from the New South 
Federal Savings Bank. I have to always look down to remember 
the name of the bank, Rob, but there is no more outstanding 
bank CO in the country and I am honored to have him here today. 
His bank has played a significant role in the city of 
Birmingham in this very area of finding ways to expand 
homeownership, finding ways to expand what I think all of us 
view as being a major corner of the American dream.
    Let me make these general points to you, Mr. Secretary. The 
bipartisanship that has allowed this legislation to come to 
fruition and the bipartisanship that I think will result from 
this legislation becoming law in several weeks ought to be a 
hallmark for what we can do in these areas. I am struck as I 
have attended a number of these hearings how many of us across 
the aisle agree on Hope Six; how many of us across the aisle 
agree on Section 8; how many of us across the aisle agree that 
if we can find ways, frankly, to expand housing, that we are 
giving people a chance to climb the economic ladder. There is 
nothing more important in this country right now.
    I would encourage you and the president to take that spirit 
of bipartisanship into account as this budget winds its way 
through its final stages and to take it into account as you 
formulate housing policy. There is a very broad consensus on 
this issue. It reaches across party lines and this hearing 
ought to be an example of that to you.
    I yield back the balance of my time.
    Chairman Ney. I thank the distinguished gentleman for his 
statement.
    Mr. Secretary, welcome.
    I am sorry. I did not see the gentlelady from New York.
    Ms. Velazquez. Thank you, Mr. Chairman. I welcome the 
Secretary to these important hearings.
    I just would like to say that it is important that we 
realize downpayment assistance is not a silver bullet. It is 
but one piece of the puzzle of increasing minority 
homeownership rates. Studies and anecdotal evidence both 
indicate that there are several additional barriers that we 
must confront. Minority borrowers are also more likely to face 
a lack of access to credit and poor credit histories; a lack of 
understanding and availability of information about the 
homebuying process; and continued housing discrimination. Many 
low-income and minority communities do not have local access to 
commercial bank branches. This severely limits access to 
lenders and increases the possibility of families not having 
traditional banking services.
    Accordingly, many potential low-income homebuyers have not 
established credit or maintained a good credit history. 
Families with poor credit history are either rejected for 
mortgage credit or given loans with high interest rates. 
Additionally, homebuyers who do not understand the homebuying 
process or for whom English is a second language, are less 
likely to be successful in their search for a home of their 
own. Worst still, those who achieve homeownership are more 
likely to be victims of predatory lending, thereby increasing 
the chances of foreclosure. It is not enough to increase the 
number of minority families who achieve homeownership. They 
must have equal opportunity to maintain that status.
    Thank you, Mr. Chairman.
    Chairman Ney. I want to thank the gentlelady.
    The gentlelady from Indiana, for an opening statement if 
you wish?
    Ms. Carson. I have a little opening statement here. Is 
anybody after me, Mr. Chairman?
    Chairman Ney. No.
    Ms. Carson. That I could yield the balance of my time to?
    Chairman Ney. If the gentlelady wishes.
    Ms. Carson. Well, nevertheless, I got a bad book, but I 
want to thank you very much for coming and for the work that 
you continue to do to enable us to do our work here. Having 
said that, Mr. Chairman, I will yield back.
    Chairman Ney. I thank the gentlelady from Indiana.
    With that, Mr. Secretary?

   STATEMENT OF HON. MEL MARTINEZ, SECRETARY, DEPARTMENT OF 
                 HOUSING AND URBAN DEVELOPMENT

    Secretary Martinez. Thank you very much, Mr. Chairman. 
Chairman Ney and Ranking Member Waters and distinguished 
members of the committee, it is a real pleasure to be with you 
today to discuss this very powerful initiative. I am also 
delighted to be enjoying this sense of bipartisanship. I have 
always felt that much of the work that HUD does is a bipartisan 
effort and I think it is something that can best be 
accomplished when we all work together across party lines to 
help Americans of all walks of life to reach that American 
dream of homeownership and better housing.
    I want to thank Congresswoman Harris for introducing the 
legislation, H.R. 1276. It already has, as we see here today, a 
number of cosponsors, and we look forward upon clarifying some 
of the perhaps misconceptions from the bill, that we might even 
have more participants and sponsorship of what I believe will 
be a real positive piece of legislation. We know that 
homeownership is a cornerstone of the American dream. The 
president has acknowledged this, and from early on in our 
administration we have been pursuing this American dream 
downpayment initiative as being a hallmark and a cornerstone of 
what can help more and more American families own a home.
    As has been pointed out by some members of the committee, 
homeownership can provide families with the kind of wealth, the 
kind of family self-empowerment that can then propel a family 
into the middle class. It can allow someone to borrow against 
that home equity to start a business; it can send a child to 
college; or it can simply be passed on to another generation 
who can then begin life in a little better shape than the prior 
generation. All of these benefits which come to American 
families as a result of the dream of homeownership are well 
recognized and well acknowledged.
    So we believe that as we seek to break down the barriers to 
the dream of homeownership, one of the most important things we 
can do is to give people a chance to become homeowners by 
helping with the downpayment. There is no question that a high 
downpayment and the closing costs that go with it is one of the 
most difficult steps that a family will find in reaching that 
dream of homeownership. Coming up with enough cash to pay the 
up-front costs of homeownership is often the single greatest 
barrier to buying a home. In Fannie Mae's 2002 national housing 
survey, a high downpayment was the barrier most frequently 
cited by those polled. Thirty-two percent of Americans said 
they would have a major difficulty making a downpayment. The 
lack of savings is a problem for many lower income and minority 
families. Oftentimes, the transfer of family assets from 
parents to their children can mean the difference on whether a 
family can buy a home. These intergenerational wealth transfers 
serve as a boost to homeownership by helping many younger 
families afford their first home.
    In many cases, however, lower income and minority families 
simply lack the accumulated wealth that can provide for a 
downpayment and closing costs. To help families overcome this 
barrier to homeownership, the Administration proposed the 
American Dream Downpayment Initiative for fiscal year 2002 and 
is asking Congress to boost its funding level to $200 million 
for fiscal year 2004. The president's commitment to lifting 
families into homeownership through downpayment assistance 
dates back to his campaign in the year 2000. The American Dream 
Downpayment Initiative fulfills one of his longstanding housing 
goals. The initiative is housed within the home investment 
partnership program, which helps communities across the country 
expand the supply of decent and affordable housing.
    Although the initiative is administered through HOME, I 
want to make it clear to the subcommittee that the dollar 
funding is not being taken away from any current HOME-funded 
programs. The American Dream Downpayment Initiative is funded 
through dedicated new dollars. Grants will be awarded to state 
and local governments to assist low-income first-time 
homebuyers with their closing costs and downpayments. To 
receive assistance, a family must have an annual income that 
does not exceed 80 percent of the median annual income. We 
anticipate that the initiative will help make homeownership a 
reality for some 40,000 American families, and this is year to 
year, providing an average subsidy of $5,000 per family. 
Although the American Dream Downpayment Initiative is not 
targeted specifically at minorities, we believe that it will be 
particularly effective at reaching minority populations, based 
upon the history of the HOME program. The HOME program today 
serves 55 percent of all the families that are served are from 
minority communities.
    Congress appropriated $75 million for the American Dream 
Downpayment Initiative for the current fiscal year. We thank 
the Congress for doing so. As a result of your support, 15,000 
families who have perhaps only dreamed of homeownership, will 
soon have homes of their own. We expect to complete the 
rulemaking process within the next few months, and have the 
entire $75 million appropriation delivered by the end of fiscal 
year 2003.
    So I want to make it very clear that the $200 million is 
all new money. The HOME program, in addition to the $200 
million of American Dream Downpayment assistance, has an 
increase in this year's budget of $113 million. So we are 
seeing an increase in HOME program of $113 million over and 
above the $200 million which we are asking as a separate item 
for the American Dream Downpayment Initiative. So none of these 
monies are coming from another HOME program or are being sifted 
out from anything that HOME does currently. This is not a set-
aside within the HOME program. It is going to be the 
opportunity for this program to run alone. It also does not 
interfere or conflict with current things that HOME does or 
with CDBG dollars and the continued flexibility of the HOME 
program will continue to be visited in the way this program is 
administered.
    We believe, as I know many others do, that self-sufficiency 
can come through homeownership and increase wealth for 
families. I know that the Congressional Black Caucus is very 
committed to the WOW initiative, with homeownership wealth, and 
I can heartily endorse that. As you know, I have in the past 
been supportive of that program. We believe that in order for 
families to fulfill their opportunity to live the American 
dream that this is a wonderful way in which to do so. It is not 
a silver bullet. It is not the only answer. It is just one of 
many measures that we believe are important in order for us to 
help families fulfill that dream.
    If I might, Mr. Chairman, just digress for one second on a 
separate item which has come up a couple of times on the issue 
of the faith-based and the issue of civil rights protections. 
Let me say that I am not aware, although I think there is maybe 
some misunderstanding, but I am not aware of anything in our 
rulemaking approach to the faith-based situation in which we 
are attempting to change any of the civil rights protections as 
I understand them to be available to all Americans. So I would 
look forward to discussing that more thoroughly with any of you 
that might be interested on an individual or collective basis. 
But I assure you that I am not interested, and I believe this 
administration is not interested in utilizing what is a very 
good concept, the faith-based initiative, to in any way abridge 
civil rights protections.
    [The prepared statement of Hon. Mel Martinez can be found 
on page 84 in the appendix.]
    Chairman Ney. I thank the Secretary for his time and his 
testimony.
    The question I wanted to start with, and this has come up 
several times, I know, to you and in phone calls today to our 
office some people asked questions about this general 
direction. Is the money for the New American Dream Downpayment 
fund new money? As you know, people have expressed concerns 
that the money for the downpayment program will be subtracted 
from the current HOME program. We have already discussed that a 
little bit today. So I just though for the record and one more 
clarification statement, you might want to address, and can you 
assure us that the money will not be taken from the existing 
HOME program to pay for the new program?
    Secretary Martinez. The best evidence I can give you of 
that is not only to say that you are correct, it is not going 
to be taken from anything else--just to be very, very clear--
but in addition to that, the HOME program is increasing this 
year by $113 million. So everything HOME has done in the past 
we will continue to do, only that it will be enhanced by $113 
million or 5 percent additional new dollars. Over and above 
that, we are asking for $200 million, which if it was not for 
this very important initiative of President Bush's which goes 
back to his campaign pledges, would just simply not be part of 
the HUD budget. So this is all new money which will only be 
available to administer the American Dream Downpayment 
Initiative.
    Chairman Ney. So, Mr. Secretary, it is not a set-aside?
    Secretary Martinez. It is not a set-aside.
    Chairman Ney. Okay. I would also want to ask you, any ideas 
of what type of approach you would take on outreach to get the 
message out on this if it is passed?
    Secretary Martinez. One component part of our broad-range 
set of initiatives to achieve homeownerships goals that we have 
set is to also do homeownership education. Our budget this year 
has a record number of dollars that we are asking for 
homeownership education--$45 million. It is the most that has 
ever gone into this arena and it is substantially more than 
what it was when we began our work in this administration. That 
money, along with other purposes and efforts, will attempt to 
reach out to families and explain to them that they, too, can 
be homeowners; that in fact, there are ways to get assistance 
with the downpayment; that in fact there are ways to help them 
with their credit history; there are ways to find a vehicle by 
which they can become homeowners. And then stay with the family 
and continue to give them the support and counseling that is 
necessary to ensure that they can be stable homeowners.
    Chairman Ney. Thank you, Secretary.
    The last question I had is, you mention in your testimony 
there was $75 million included, and therefore you are 
completing a rule.
    Secretary Martinez. Correct.
    Chairman Ney. Now, in that rule, as I understand it, the 
Department would be using only HOME and CDBG as the criteria. 
Is that accurate?
    Secretary Martinez. The current formula that we are working 
on, a rule which by the way we hope to have out this summer to 
ensure that it gets out the door timely, is a formula that will 
be based on the same basis as the regular HOME program formula, 
which is used to establish a need component and determines most 
of the participating jurisdiction allocations under the 
American Dream Downpayment Initiative.
    Chairman Ney. The reason I mention it, I just wondered if 
in this process, and I understand you are looking at HOME and 
CDBG, but in this process, would there also be an effort to be 
able to look at, for instance, to just throw one item out 
there, mortgage revenue bonds? I am just wondering what 
flexibility would be there. I do understand part of an argument 
that would be, if something does not have a certain verifiable 
track record, that would create a problem. But I just wondered 
if you thought at this point in time in the process it will be 
just CDBG and HOME, or if there would be an opportunity to look 
at other things?
    Secretary Martinez. We understand that there are a number 
of other things out there that folks are doing that are good 
things. The problem at this current moment in time is that we 
do not have the availability of reliable data to be able to 
utilize it in this year's formulation. As we go forward, we 
look forward to finding a good tracking of other things that 
are being done so that we can incorporate those things into the 
formula. We just do not think that we can accomplish that in 
this initial year with the $75 million, which we almost feel is 
like a pilot sort of program.
    Chairman Ney. I understand. Thank you.
    Ranking Member Waters?
    Ms. Waters. Thank you very much.
    Mr. Secretary, I know that your intentions are good. The 
bill certainly does not clarify that there will be new money. I 
take your word for it that there will be new money in this 
program and that the HOME budget is not being reduced in any 
way to account for this new money.
    Let me just say this, there is an obvious need for 
homeownership and downpayments certainly are obstacles to 
homeownership. There are any number of programs that provide 
homeownership downpayment assistance that are already in 
government--Fanny Mae, Freddie Mac, all of that. I have not 
done enough research to understand how many people they are 
helping and how those programs are doing. I know that when you 
take a look at the need, you mention and you agree that $75 
million is just a drop in the bucket and $200 million is not an 
awful lot either, dealing with the size of this country and the 
need that we have.
    I look at these programs this way. What I do not 
particularly like is, I do not like a kind of political 
response with a nice name to a serious problem. I do not like 
programs that basically put the right title on it, and then you 
have nothing else to go with it. For example, I could sit here 
for the next 10 or 15 minutes and talk about what it takes to 
get somebody into a home. It has been mentioned here. It is not 
just a $5,000 downpayment or $10,000, we really do believe that 
there is something to dealing with the lack of access to credit 
to begin with. In this kind of program, what you will get is 
you will get the cream of the crop, people who can qualify 
without a lot of help, and they will be credit-worthy or 
whatever you want to call it, and they will get their $5,000 or 
$10,000. Our problem really lies with a lot of what Nydia 
Velazquez talked about--access to credit and a lot of other 
things.
    Again, and I want to tell you, in addition to all those 
problems, the need for counseling, the need for education--all 
of that that is not designed within this program--this is a 
very simplistic way of looking at it. I think if you want to do 
something comprehensive, that we certainly should have a real 
comprehensive program of assistance to get people into homes 
that would include not only the counseling and the education 
and the access to credit problems and the red-lining and the 
predator lending and all of that that goes along with it. But 
we would also include the private sector. The federal 
government will never be able to have enough downpayments to 
make a dent. Hopefully, some people will be able to be helped; 
a few people will be able to be helped. But it seems to me if 
we couple this with a way by which we encourage the private 
sector to come up with products, and we have. The chairman and 
I were just sitting here talking about how some people can get 
mortgage assistance without downpayments depending on the 
institutions and who you are when you talk to them and all of 
that. Then I think that if we get the private sector involved, 
then it becomes a product that is offered, that is used, where 
people evaluate it in ways that they can get no downpayments, I 
think we really would be doing something.
    I want to tell you something, when you look at the 
philosophy behind why downpayments, it just does not make any 
sense anymore. It used to mean that you were more worthy; that 
if you somehow put up a little bit more money, then you are 
likely to make your payments. Not true. The fact of the matter 
is there are people who will never have a downpayment, who make 
their rental payments every month on time, and they would be 
just fine if they could get a product that could be offered to 
them by the people who really do the financing, who do the 
mortgages.
    So all I am saying to you is this, fine. This is a nice 
program with a nice name and it looks very, very good. It is a 
drop in the bucket compared to the need and it does not have 
going along with it the other kinds of things to make for 
successful homebuyers that will keep people from being 
foreclosed on. But I thank you for your effort.
    Thank you.
    Secretary Martinez. May I reply please?
    Ms. Harris. [Presiding.] Yes. Her time is up, but please go 
ahead and reply, Mr. Secretary.
    Secretary Martinez. Ranking Member Waters, I appreciate 
what you are saying and I agree with you wholeheartedly, that a 
fancy name and a do-nothing program is not anything that I am 
interested in doing. That is why that is not what we are doing. 
We are doing a comprehensive program just as you described. We 
do have a partnership with the private sector just as you 
describe. We have another fancy name for it. We call it the 
Blueprint for the American Dream Partnership. We had a White 
House conference in October to launch this effort with the 
president participating and endorsing it and giving it his 
commitment. What we have done is, we have done exactly what you 
are suggesting. We are reaching out to the private sector, to 
mortgage bankers, to Fannie Mae, to Freddie Mac, to the 
realtors, to the homebuilders, to everyone involved in the 
housing process to reach out to them and get them all to begin 
to do things that are going to be meaningful and that are going 
to bring more and more families into homeownership.
    This drop in the bucket program will not be just a drop in 
the bucket to the 40,000 Americans who will now own a home 
because they will get downpayment assistance. To them, it is 
the world, it is everything.
    Ms. Waters. Will the gentleman yield?
    Ms. Harris. Your time has expired.
    Ms. Waters. My time is over.
    Secretary Martinez. In addition to that, I think you 
diminish the importance of all that we are doing, because it is 
not just about a downpayment program. This is what this bill is 
about. It is what this hearing is about. All of our programs 
are comprehensive in nature. They attempt to do more 
availability of affordable housing, for instance, through the 
single family housing tax credit proposal that is a part of 
this year's budget. So we are reaching out, I believe, in a 
very comprehensive way that I believe does in fact go to the 
poor families of America--52 percent of the recipients of this 
downpayment assistance will have a median income of less than 
60 percent. I believe that it is significant in terms of the 
type of Americans that it will be reaching out to.
    So I would not want to be sounding too defensive about it, 
but I do think that it is important that at least we set the 
record straight. Besides that, I want to just tell you that in 
terms of assurance to you that this is new money and it is not 
going to come from existing HOME program, the best I can give 
you is the president's budget submission where this is included 
in that. I believe the budget documents submitted by the 
president to the Congress clearly delineates how much the HOME 
program is getting and over and above that, there is $200 
million for the American Dream downpayment.
    I hope that not only will we have your enthusiastic support 
for this effort, but that I might even see you as a sponsor of 
the bill.
    Ms. Harris. Thank you, Mr. Secretary.
    Ms. Waters. If you had invited me to the White House 
conference that you all had; if you invite the co-authors who 
are Democrats----
    Secretary Martinez. Would you come?
    Ms. Harris. Thank you, Secretary. Thank you.
    Ms. Waters. We may have something going, then I would know 
what you know.
    Secretary Martinez. You have a standing invitation. I will 
see to it.
    Ms. Harris. I will recognize myself since I am next.
    Thank you, and for the ranking member, I thank you for 
those questions. Secretary Martinez, I am thrilled to know some 
of the more expansive role that you are playing and the White 
House. I think it is important to know the context of the 
American Dream Downpayment Act.
    Now that we have seen that it is going to be new money and 
we are really focusing on some of the educational aspects as 
well, and the 80,000 people that it will assist--families. We 
think that it is so important. Can you highlight three things 
for me that you believe in your own words will occur?: Number 
one, the wealth that you believe will be generated through this 
homeownership act; second, how you see the move from Section 8 
into that personal homeownership; and then third, how you see 
it bolstering our nation's housing industry and expanding the 
tax base.
    Secretary Martinez. Let me touch on that third issue, 
because frankly we have dwelt on the other two a little bit 
already, but I want to make sure that I hit on that third 
before I might forget my train of thought.
    We believe that by increasing the ranks of homeowners in 
America by 5.5 million minority families between now and the 
end of the decade, which is part of what this effort here is 
about, that is what the American Dream Downpayment Initiative 
will help to do, that we will generate $256 billion of economic 
activity. So while we see the housing industry today as one of 
the strongest if not the strongest segment of our economy, in 
what is we know a bumpy economic time, we look forward to the 
American Dream Downpayment Initiative playing a part in this 
overall effort to improve America's families, while at the same 
time providing a tremendous economic boost of $256 billion.
    Now, in terms of Section 8 families, we see there a group 
of people who have been under rental subsidy programs, but now 
have a couple of avenues in which to get themselves into 
homeownership and begin to build the kind of equity that we 
will talk about in a moment as well. These families now have a 
vehicle of accumulating their Section 8 vouchers towards a 
downpayment, but in addition to that, they also can get 
assistance from the American Dream Downpayment Initiative so 
that they can at times, for no more than they are paying for 
rent, be able to reach into the homeownership ranks and begin 
to build the kind of family wealth that the first part of your 
question implies, which is the fact that the way middle class 
America has reached financial self-sufficiency has been in 
large part through homeownership. Long before there were 
retirement accounts and long before the average American family 
found investment in the stock market, the only and the real way 
in which America's families became self-sufficient economically 
was through the equity in their home. This is what I want to 
see and what the president is seeking to bring about for 5.5 
million more minority families.
    Ms. Harris. Thank you, Secretary.
    I recognize Mr. Scott from Georgia.
    Mr. Scott. Yes, thank you very much.
    Mr. Secretary, bad credit scores are also a major barrier 
to homeownership. What steps do you recommend to educate 
potential homebuyers in order to improve their credit scores?
    Secretary Martinez. Sir, I think that through our 
homeownership education programs, a lot of organizations in our 
communities, whether they be faith-based or otherwise, are 
working with families to try to improve their credit history. 
Many times we find that there is also the, and this month we 
are celebrating fair housing month, where we focus and 
emphasize in our department the historic ties to the Equal 
Housing Act of 1965 and the fact that through this act, we 
began to be empowered at HUD to ensure that all Americans had a 
fair opportunity in the arena of housing.
    One of the things that we must look at is how difficult 
sometimes it is for families with atypical credit histories to 
get access to credit and how they might sometimes be treated 
differently just because the way their earnings are reported, 
because of perhaps coming from another place in our planet or 
things of that nature. In addition to that, we also have to 
work with families to improve their credit scores. 
Homeownership education, the $45 million that we have in our 
budget, will assist in doing so.
    So we look at it, again, comprehensively. It is not just 
about improving credit scores by education, by teaching 
families how to better order their finances or how to erase a 
past credit history, but also through, frankly, the problems of 
discrimination which while obnoxious and part of our history, 
are also really part of our present as well, and we need to 
continue to work hard to ensure that that is not a problem that 
is keeping families from becoming homeowners.
    Mr. Scott. And just a second part of my question is that, 
given now that the average interest rates on a fixed-rate 30-
year mortgage are at a 30-year low, as it is right now, do you 
believe that this is the most important or opportune time to 
provide some downpayment assistance to low-income families?
    Secretary Martinez. With the low interest rates, obviously 
the monthly payment becomes less and less of a burden, but 
there still are those insurmountable downpayment and closing 
costs. So precisely, this is a time when a shot in the arm with 
downpayment help of $5,000 to a family, in addition to what 
they can save themselves, would make a big difference. So I 
believe that the downpayment issue, which frankly I do not 
think is just an issue of ensuring that it is a better credit 
or more worthy individual. I think it is in fact a partnership 
that financial institutions like to see. They like to see their 
investment be equally an investment to the homeowner. So 
building an equity interest in a home at the time of ownership 
is an important component.
    So we want to see families give a little something of 
themselves, but we want to be able to also give them that 
bridging to homeownership. Never has there been an opportune 
moment, or certainly not in the past 30 years, like there is 
today.
    Mr. Scott. Very good. Thank you, sir.
    Secretary Martinez. Thank you for your question.
    Ms. Harris. Thank you.
    The chair recognizes Mr. Renzi, the gentleman from Arizona.
    Mr. Renzi. Thank you, Madam Chair.
    I want to point out to the gentlelady from California that 
it might help. On page four, line 19, the legislation itself 
authorizes $200 million in the language for fiscal years 2004 
and 2005. In moving this out of committee and onto the floor, 
we would actually be authorizing the appropriation of the $200 
million and that you do not need just to refer to the 
president's budget, but you can refer to the actual language to 
get this done.
    I want to go back to my opening statement where we talked a 
little bit about the low-income assistance program that helped 
me get to Congress. I remember back to the days of the FHA-235, 
and we talked about some of the other types of programs that 
exist out there for low-income, underprivileged, strong, 
growing Americans to be able to reach out, get those programs 
and gain homeownership. I am not aware of a program that was 
developed for low-income prospective buyers that allows you now 
to put another program on top of it and provide you with a 
downpayment. Now, that does not mean that they not out there, 
but for me what it says is you are getting something on sale 
and you are getting the coupon to go with it, almost double 
off. That kind of incentive, along with the historical low 
interest rates that my friend from Georgia talked about, I 
think that combines to make this an incredible time and an 
incredible opportunity.
    One of the questions that I have is when we talk about some 
of the old FHA programs, when we talk about some of the new 
incentive-type low-income programs, I know that I was able to 
achieve not only homeownership, but borrowing against my home 
to build my business on a second mortgage. I realize looking at 
the language of the bill that the eligibility would now allow 
for you to borrow the downpayment or get the downpayment from 
this program and apply it to a second mortgage. Am I correct in 
that assumption?
    Secretary Martinez. I believe that you could ultimately get 
a second mortgage on your home. You could not at the outset 
have--I mean, the downpayment assistance program would be 
independent of whatever you might do with your mortgage.
    Mr. Renzi. Okay. So the downpayment assistance program 
would apply to the principal purchase of the home.
    Secretary Martinez. That is correct. Then later on----
    Mr. Renzi. Then later on once you have the equity, you 
could borrow against it.
    Secretary Martinez. Right.
    Mr. Renzi. Okay. It is that second mortgage, borrowing 
against that equity, that then I think lifts individuals to the 
next level.
    Secretary Martinez. You have to have a margin of equity 
before you can do that, but at that time, yes, I think that 
would be permissible under the program.
    Mr. Renzi. Is that something that we are thinking about in 
the future, where we would actually develop programs to assist 
with second mortgages. I realize, as the gentlelady from 
California pointed out, we have so many people who need first 
mortgages.
    Secretary Martinez. I think the marketplace would 
accommodate that. I do not think that we would need a 
government program. I think that the marketplace would probably 
pick that up because at that point the collateral for the loan 
would be sufficiently secure with the equity in the home. We 
might defer to our banking friend visiting here today from 
Alabama for that answer, but I think that that would be the 
case.
    Mr. Renzi. Okay. Thank you, Mr. Secretary.
    Secretary Martinez. Yes, sir.
    Ms. Harris. The chair recognizes Mrs. Lee from California.
    Ms. Lee. Thank you, Madam Chair. Let me thank you and our 
ranking member for this hearing, and I thank the Secretary for 
being here.
    I want to ask you a couple of questions. I think our 
ranking member, Congresswoman Waters, really summarized the 
complexity and the multi-faceted approach that is required to 
increase homeownership. One is, of course, the development of a 
production program to increase the stock of affordable homes. 
Of course, we are working to create a national housing trust 
fund and would like to get your take on if that would or would 
not be useful in terms of creating homeownership.
    Secondly, let me ask you about a point you made in your 
statement. Yes, $75 million was a drop in the bucket, however 
you note that 15,000 families have participated. I would like 
to find out of those 15,000 families what you are seeing in 
terms of Northern California, the State of California, 
Massachusetts, New York, because of course in many of our 
areas, a $5,000 downpayment when the average cost of a home is 
$400,000, $450,000, average income $35,000 to $50,000--how do 
these 15,000 families break down in terms of where they are 
located and what in fact is HUD doing to ensure that the 
affordability gap is addressed between income and cost of 
housing?
    Secretary Martinez. First of all, our rulemaking is still 
in process and the monies have not begun to go out yet, but 
they will go out in accordance with the formula, which formula 
is dictated in large measure by population. So to whatever 
degree your state, your district today receives HOME dollars, 
there will be a very close parallel to what they will receive 
in their proportionate share of the $75 million in this year's 
allocation or the $200 million in the future.
    Ms. Lee. But Mr. Secretary, though, a $5,000 downpayment--
what I want to know is, even based on the formula we receive, 
whatever funding allocation that there is based on the average 
cost of a home, a two-bedroom house being over $400,000 and the 
average income $35-50,000, how does this $5,000 address that 
gap?
    Secretary Martinez. It would have to do it in conjunction 
with the other aspect of the HOME program and the CDBG program, 
which then--the HOME program, we have $2.2 billion, I believe 
if my memory serves me correctly, going out this year, with a 5 
percent increase of $113 million. That will go towards creating 
more affordable housing opportunities throughout the country, 
so then your local jurisdiction would have whatever programs 
they use their HOME dollars currently for in order to provide a 
stock of affordable housing that families then could go to and 
use their downpayment.
    Ms. Lee. Is that in the bill? Because--and the same thing 
with CDBGs, that is not on the chopping block this year at all? 
You are fully funding that?
    Secretary Martinez. Yes. CDBG and HOME is full funding.
    Ms. Lee. Is it authorized?
    Secretary Martinez. Of course.
    Ms. Lee. Have you reauthorized it or sent up a proposal?
    Secretary Martinez. CDBG, of course it is, yes.
    Ms. Lee. And it is reauthorized?
    Secretary Martinez. Reauthorized and fully funded, and HOME 
is reauthorized and will receive an increase of 5 percent or 
$113 million new money.
    Ms. Lee. So for example, if a person finds a house in any 
of our areas and they do not qualify, the average downpayment 
would be--they do not qualify in terms of income--average 
downpayment is at least $25,000 to $30,000. You are saying they 
can piece together that $25,000 to $30,000 to be able to 
participate in this and to get the downpayment for a $450,000 
house?
    Secretary Martinez. What I am saying to you is that in your 
local jurisdiction, you now receive HOME dollars. HOME 
investment and partnership dollars are designed to provide 
affordable housing availability. So whatever they are doing to 
provide availability of affordable housing in your community, 
that program is there and available. Hopefully, there are homes 
that they are putting on the market that are reachable to 
families in the area for the type of low and moderate income 
that we are looking at.
    Ms. Lee. But in most communities in high cost of housing 
areas, they are not. And that is what I am asking you. How does 
the $5,000 fit into that?
    Secretary Martinez. Let me ask my Assistant Secretary, Roy 
Bernardi, for Community Planning and Development, and address 
that issue more specifically.
    Ms. Lee. Thank you.
    Mr. Bernardi. Good afternoon, congresswoman. In the fiscal 
2003 budget for HOME, the allocation will this year provide 
98,000 production units. Of that, the rental units that will be 
constructed will be about 42,000; homebuyer units at 37,000, 
and homeowner rehabilitated units at 19,000. That is about 
98,000 units. As the Secretary was indicating, with the 
increase in the HOME allocation for fiscal year 2003, about 
$100 million more than fiscal year 2002, and with the 2004 
budget that you are going to be looking at from now until 
obviously you pass it, there is $113 million increase in the 
HOME formula program. Those monies can be used by the 
participating jurisdictions obviously to create the kind of 
affordable housing, both homeownership and rental housing, that 
would be affordable to folks that you mentioned that are 
perhaps in the $35,000 to $45,000 a year income range.
    Ms. Lee. What I am saying is that the average cost of a 
house--are you----
    Ms. Harris. Ms. Lee, I am sorry. Your time is up.
    Ms. Lee. I will submit the questions to you in writing, 
because if the average cost of a house is $450,000, and the 
average income it $35-50,000, how does that gap get closed?
    Secretary Martinez. By the HOME program building homes, 
subsidized homes with assistance from HOME dollars that are not 
going to be at the market rate of $400,000. There are going to 
be some substantial number below that, so that they are 
affordable to poor and low to moderate income families.
    Ms. Harris. Thank you, Secretary. Ms. Lee, if you could 
follow-up with some written questions, that would be great. We 
will get those answers for you. Thank you, Secretary.
    Mr. Miller from California?
    Mr. Miller. Thank you very much.
    We have been discussing in recent years, and I always 
supported the concept of doing anything we can do to get people 
out of renting Section 8 homes. That would be, I believe the 
president was talking about using housing choice vouchers. If 
we can--I do not know how great it is going and I would like to 
get an answer--I know we talked about allowing them to have 12 
months worth of vouchers they could use towards a downpayment 
on a home. I mean, in the long run it seems to make a lot more 
sense if we can get people out of Section 8 homes into their 
own home, the rent does not increase over the next 20 years. 
They have a stable rent if they buy today, where if we keep 
them in Section 8 houses, the rent is going to increase every 
year for the next 20 years and we relegate those individuals to 
Section 8 houses. So how is the--I believe it was called the 
housing choice voucher program that is in the budget--how is 
that going at this point?
    Secretary Martinez. We have a Section 8 voucher for 
homeownership program. That program allows the family to 
accumulate their vouchers and then put them towards a 
downpayment so that they----
    Mr. Miller. So they can acquire 12 months and put that 
towards the downpayment on a home?
    Secretary Martinez. Exactly. And then that gives them--you 
see, we are very convinced that in spite of some who may 
suggest that this is insignificant, that the greatest single 
barrier to homeownership--I mean the facts show it--is the 
downpayment. So if you can give a family assistance in getting 
that downpayment, they can then more likely than not in many 
instances get themselves into homeownership. So the Section 8 
move-up opportunities----
    Mr. Miller. So the program we were talking about two years 
ago has been enacted. They can still use their Section 8 
vouchers to make a payment, but that creates a stabilized 
payment structure over the 30-year loan or whatever it might 
be, instead of having to increase those vouchers yearly as you 
have to do in the open market on rentals.
    The other question I have is, you have seen an increasing 
amount of nonprofits get into buyer downpayment assistance in 
recent years. Heart, that I previously mentioned, from 1998, 
they started in 1995, but in 1998 they got into downpayment 
assistance which provides a buyer with up to $15,000, depending 
on the need of the individual. They have put about 40,000 
people in new homes in that period from 1998 to date. How does 
this program complement the private sector assistance program 
that we currently see out there that we are proposing now?
    Secretary Martinez. I am sorry, congressman. I lost your 
question along the way somewhere.
    Mr. Miller. There are numerous nonprofits today that have 
started up in recent years to provide downpayment assistance to 
homeowners. It is all private sector money. There is no 
government involved. We are now creating a government program. 
I am asking how that government program complements the private 
sector programs that currently exist.
    Secretary Martinez. What it does is it creates a larger----
    Mr. Miller. I do not want them working against each other. 
I would rather see something expand opportunity, rather than 
prohibit it.
    Secretary Martinez. It does expand opportunity and it is a 
flexible program and it will work to enhance those already 
existing programs. In fact, some jurisdictions, you will hear 
in the next panel I am sure, already utilize HOME dollars 
towards the downpayment, which is great. The president's 
commitment to homeownership is focused, so therefore we want to 
make sure there is at least $200 million going out every year 
from every jurisdiction towards the downpayment assistance 
program. There are others already doing it. The private sector 
is already doing it. Because we know it is the single greatest 
key towards putting a family in homeownership. So this is just 
a focused program that is going to be there for $200 million 
new money just to do that program.
    Mr. Miller. HUD's goal I would assume in the future is 
talking about the quality nonprofits. I know there are some 
rascals out there we need to deal with occasionally. But the 
quality nonprofits out there, HUD is working in good 
cooperation with them. You and I met about two years ago, and 
about three or four years ago we had some problems out of 
certain HUD offices, that people would put certain things on 
the Internet that caused difficulty for nonprofits when they 
went out to get loans to help people. I notice that problem has 
been resolved. I applaud you for that. I just hope that the 
program being implemented will complement everything that 
currently exists to really expand opportunities that we have in 
the marketplace.
    Secretary Martinez. They will be a partner and an aider; 
not to be in any way a competer or a detractor.
    Mr. Miller. Thank you, Mr. Secretary.
    I yield back.
    Ms. Harris. Thank you, Mr. Miller.
    Mr. Davis from Alabama?
    Mr. Davis. Thank you, Ms. Harris.
    Let me, if I can Mr. Secretary, go back to an observation 
you made earlier, as I think it is important and I want to make 
sure that you are agreeing with me on this. You were making the 
point in your colloquy with Ms. Lee about the fact that states 
will continue to receive under this initiative the same rough 
percentages that they were receiving under the old HOME 
initiative. That is an important point, and just to make it 
clear to you and to the panel why that is important, there are 
some States that have used a lot of the HOME funds for 
downpayment assistance. There are other States that have had 
the exact same commitment to downpayment assistance, but they 
have relied on what Chairman Ney described earlier, the 
mortgage revenue bonds or any of a number of other funding 
schemes that may be available. Alabama happens to be one of 
those states that has not necessarily been heavily relying on 
the HOME formulas, but they have used other means, the mortgage 
revenues, for example, to meet this commitment.
    It has been a concern under one of the subsections, the 
formula allocation subsection, that when you go about computing 
your new formula under this statute that you will look at, 
quote, a participating jurisdiction's need for and prior 
commitment to assistance to homeowners. There has been some 
concern that if that is measured, as you said in your opening 
statement, by what has been spent under the HOME initiative, 
that that could actually result in a loss of funding for some 
States, Alabama being one of them.
    Now, you have said, and I think what you have said has been 
sufficient to correct this, that it is the commitment of HUD 
and the commitment of the Administration to make sure that the 
percentages are kept constant. Is that correct?
    Secretary Martinez. It is not only our commitment, it is 
what the law will dictate that we do.
    Mr. Davis. All right. I would simply ask, and I have 
discussed this with Ms. Harris before, but would you be 
amenable to a friendly amendment to this legislation that would 
just clarify what you have said, that the percentages will be 
kept constant so that in an effort to expand we do not end up 
unintentionally contracting states like Alabama?
    Secretary Martinez. Sir, I would work with you on the 
language to make sure that we do not do something that we would 
not want to do, but at the same time the concept here is that 
this would flow through the HOME dollar formula in a way that 
would not diminish what already goes to any given state. So I 
would agree to work with you on that.
    Mr. Davis. All right. We will certainly do that, because I 
think again your commitment is that jurisdictions be rewarded 
for engagement in this area and that engagement can obviously 
come in different forms.
    Let me completely digress because we do not get the benefit 
of questioning you every day, so I want to take advantage of 
this time and ask you a few other things. I want to go to 
something Ms. Waters and Ms. Velazquez said earlier about 
discrimination that exists in the housing market that might 
obviously lie on top of any economic barriers to obtaining 
downpayments. Obviously, as I move around my district, 
occasionally I run into people who do not necessarily agree or 
do not necessarily understand that there is still current and 
present discrimination that goes on. So for the benefit of some 
of those folks, Mr. Secretary, would you delineate what you 
consider to be the primary types of discrimination that still 
go on in a very specific sense so that we can get a better idea 
of how we might address some of those things?
    Secretary Martinez. I would be happy to have further 
information provided to you by our Office of Fair Housing and 
Equal Opportunity. Carolyn Peoples, our Assistant Secretary, 
would be certainly available to you at any time. But let me 
just say clearly that there is discrimination as we speak today 
in rental housing. It is more pronounced today and with less 
improvement as it relates to Hispanic discrimination than it is 
even as to other ethnic or racial groups. In addition to that, 
in homeownership there continues to be discrimination. There is 
clearly discrimination in the opportunities for credit the 
families have. I think what the gentlelady has indicated is the 
true fact and the correct fact.
    We believe that while, you know, we do our own studies, so 
these studies are available to you and we would be happy to 
provide them. But without question, there exist problems and 
there continues to be a need for us to enforce our fair housing 
laws; for us to do outreach and be out there vigilant and 
working with community organizations to improve the chances of 
families not being victims of discrimination.
    Mr. Davis. And let me just ask you this couple of follow-
ups, if I will. Given the fact that we have an acknowledgement 
that there is still continuing institutional discrimination in 
these areas, give me some specific legislative guidance or give 
this committee some specific legislative guidance of where we 
might go if we wanted to mount an attack on what you 
acknowledge is ongoing discrimination. Is it not pervasive. It 
is not everywhere, but exists in some limited pockets. Give me, 
based on your expertise as HUD secretary, give me some guidance 
on what direction you think we might take, specifically, to 
address the problem.
    Secretary Martinez. I think in the question of fairness, I 
should do it more comprehensively and I think I should have 
Carolyn Peoples involved, who is day-to-day charged with this 
task. So I would hate to incompletely answer your question. So 
I would love an opportunity to sit with you and discuss it.
    I think frankly also I have to tell you, a lot of the laws 
are already there. What we need is enforcement opportunities 
and continued outreach in this area, working through our FIBS 
and our FAPS, our community organizations, state organizations 
that pursue issues of discrimination. I think one of the issues 
frankly in very surprising numbers is Hispanic rental 
discrimination. While other forms in other groups has dropped, 
it has remained constant over the last however the period of 
years that the study covered. I think a lot of that is a lack 
of information, a lack of outreach, a lack of knowledge.
    So we need to continue. I think an area where we need to do 
it is to be very proactive in informing people that they do 
have access; that our offices at HUD are charged with the 
responsibility of enforcing fair housing laws; and that we do 
have proactive activities going on about this. So I would love 
to have Carolyn and I sit down with you and provide maybe a 
workshop where we could discuss ways in which we can work 
together towards improving the chances.
    One thing I will point out is that HUD does not regulate 
financial institutions. So when it comes to a lot of these 
issues on lending discrimination, which Ms. Velazquez very 
appropriately pointed out, they really do not come under the 
jurisdiction of our department, but really lie in other areas. 
But to the extent that we can deal with the issues, I would be 
happy to sit down with you.
    Mr. Davis. Would you yield me 15 seconds, Ms. Harris?
    Secretary Martinez. I am sorry. I was long on my answer. 
That is my fault.
    Ms. Harris. Yes.
    Mr. Davis. Once Ms. Peoples produces the study that you 
talked about, would you be amenable to stiffening the penalties 
that do exist for practicing discrimination in these areas? I 
recognize HUD does not govern the area, but just as a public 
servant----
    Secretary Martinez. I absolutely believe that it is 
something that is insidious. It is something that prevents our 
families from----
    Mr. Davis. But do you support stiffened penalties?
    Secretary Martinez. Absolutely, I would. Yes, sir.
    Mr. Davis. Okay. All right. Thank you.
    Ms. Harris. Thank you very much, Mr. Davis, Mr. Secretary.
    Ms. Velazquez from New York?
    Ms. Velazquez. Thank you.
    Mr. Secretary, while I appreciate your earlier statement 
that 55 percent of HOME funds currently aid minority families, 
I would like to know what assurance can you give us that the 
same will hold true with this new initiative?
    Secretary Martinez. The first thing I can tell you is that 
our whole initiative is geared towards minority homeownership. 
The whole focus of what we are doing, particularly with our 
private sector partners, is geared towards reaching into 
minority communities. So I cannot tell you because it would be 
I think in violation of the formula that this will only help 
minority families or will be given any given percentage, but 
the best I can give you is the historical background of how 
HOME dollars have been spent in the past. I think that would be 
at least a bottom number of where we will be in the future as 
it relates to this. My hope, my goal and my expectation is that 
more than 55 percent of the families served with this 
downpayment assistance will be in minority communities.
    Mr. Bernardi. Ma'am, the numbers in the HOME program since 
its inception is 270,000 families have been assisted 
homebuyers. Of that amount of money that has gone to the HOME 
program, that is about 25 percent that the participating 
jurisdictions in the state used for homebuying programs. As the 
Secretary mentioned earlier, about 52 percent of the people 
that are assisted, their income is less than 60 percent of 
median. And of the total amount, under 80 percent, there is 
another 47 percent between 60 and 80 percent. So this money 
obviously is going to go to the people that need it the most. 
Congresswoman Lee, I was told that when it comes to downpayment 
assistance, that $5,000 is an average. Obviously, we use that 
to compute the 40,000 homeowners that we would assist with $200 
million. But the participating jurisdiction can change that. 
They can make it $10,000, $15,000; I believe up to $20,000. So 
to buy a home in an area where home prices are a little higher, 
that would obviously have less people that could participate in 
the program, but they could give more money.
    Ms. Velazquez. Mr. Secretary, what will HUD do to ensure 
that those families who receive downpayment assistance will 
receive homebuyer counseling?
    Secretary Martinez. I think the HOME program as it is 
administered by the states will ensure that the families they 
work with are receiving homeownership counseling. What we have 
done to help that along is to provide $45 million, the largest 
amount ever, in our budget request for homeownership education. 
So whatever has been going on in the past should be enhanced by 
this particular new budget request, but Mr. Bernardi can 
probably add a little something to that.
    Mr. Bernardi. In the HOME program, there is approximately 
$16 million for technical assistance that we provide to our 
participating jurisdictions and to the states to make sure that 
they do the things that are necessary and have the capacity to 
provide the homebuyer education programs that you are speaking 
of--both the counseling and the education. What we need to 
obviously make sure is not only that we place someone in a 
home, but they are able to maintain that home.
    Ms. Velazquez. Is there any way that you can measure to 
what extent they provide counseling and education?
    Mr. Bernardi. I can get back to you on that and let you 
know exactly the progress that we make with those programs. 
Yes, ma'am.
    Secretary Martinez. I think, without being specific, as a 
practical matter I think that that is a component part of what 
just about every jurisdiction does. Everybody recognizes the 
importance of homeownership education as a component part of 
bringing someone to homeownership.
    Ms. Velazquez. Thank you, Madam Chair.
    Ms. Harris. Thank you, Ms. Velazquez.
    Mr. Watt from North Carolina?
    Mr. Watt. Thank you, Madam Chair.
    Welcome, Mr. Secretary. I am sorry I was not here for your 
testimony, but I had another hearing that I was involved in and 
could not get there.
    I just have one question. I fully support homeownership and 
I know that downpayments have historically been a major 
impediment to homeownership. I have one question, and if you 
have already answered this question, just tell me you have and 
I will go back and look at the record. I will not take your 
time. There is $75 million in the 2003 fiscal year budget for 
something called the American Dream Downpayment Fund, for which 
HUD is currently writing regulations. How would this bill 
differ in what you are able to do under the bill than the 
regulations that you anticipate writing under--I guess the 
question is, do you already have the authority to do everything 
that this bill would authorize?
    Secretary Martinez. No, we do not. The one-year allocation 
of $75 million for which we are writing regulations is for the 
one single year. In order for this program to go into the 
future, we need the new legislation which is now being moved. 
So the regulation that we are putting forth in terms of how it 
administers the program will be very similar to the legislation 
we are proposing. But the two are necessary, one, for the 2003 
$75 million allocation, the legislation, H.R. 1273, for going 
forward with the Administration of the program.
    Mr. Watt. I guess my question is, if you have the authority 
to do it in 2003 without a bill, couldn't you exercise that 
same authority to do it in 2004 and 2005?
    Secretary Martinez. No, because there was authorizing 
language for specifically taking care of the 2003, but not for 
the future.
    Mr. Watt. Oh, so it got authorized. Okay.
    Secretary Martinez. We are starting over.
    Mr. Watt. Okay. But in effect, the bill would statutorily 
frame a program that you are currently framing through 
regulations? Is that correct?
    Secretary Martinez. Right. That is correct.
    Mr. Watt. All right. I will yield the balance of my time to 
Representative Barbara Lee.
    Ms. Lee. Thank you. I thank the gentleman from North 
Carolina for yielding.
    Let me just ask a couple of follow-up questions. I am glad 
to hear you say that the money can be used, it does not 
necessarily have to be $5,000, but I think it is important for 
us to know that $20,000 even is about 5 percent of a $400,000 
home, so what does that mean in terms of regional differences 
and how many people or how many families will be eligible if 
that is the case. You mentioned earlier that by combining HOME, 
CDBG, and now the downpayment assistance, that there would be 
additional funds available for this kind of effort. I have to 
assume that you believe that if you create more affordable 
housing or more housing, the prices go down. So my question is, 
with regard to the trust fund that we have proposed, in 
attempting to try to get support for that, because by creating, 
by using $2 billion a year out of the FHA reserves, we can 
create over 1.5 million new affordable housing units, and given 
the nature of our recession at this point, create thousands of 
jobs.
    So why isn't this part of a homeownership strategy in terms 
of a full-fledged housing production program, when we have the 
resources to do that?
    Secretary Martinez. I think because we have a philosophical 
difference in whether the utilization of the FHA reserves is an 
appropriate pool of money from which to draw for this program. 
I think in a number of instances I have expressed my concern 
that the FHA reserve is for the soundness of the FHA program, 
which only a few years ago was in difficult financial 
circumstances and which, if there was to be an economic 
downturn and an excessive amount of foreclosures could again be 
in a difficult circumstance. So I believe that FHA, being kind 
of a cornerstone of bringing homeownership opportunities to 
poor and first-time homebuyers, that it is something that we 
should be very cautious in terms of utilizing their reserves.
    Ms. Lee. Sure, Mr. Secretary, when we presented to you the 
information, in terms of the soundness of the fund and those of 
us who support a production program using these funds care 
about the safeness and soundness of the fund also. We have 
shown over and over again that this would not be impacted the 
way you say it would be. So I urge you to look at that.
    Ms. Harris. And also if you wish, any of these questions or 
further statements can be put forward in the record. Thank you.
    Ms. Carson from Indiana.
    Ms. Carson. Thank you very much.
    Mr. Secretary, again thank you so very much for your 
indulgence. I appreciate very much your being here today to 
support this initiative. Homeownership instills pride and 
stability and new families, fosters the creation of wealth and 
completes for many the picture of the American dream.
    Let me, without sounding too skeptical, I come from 
Indianapolis, Indiana where the foreclosure rates remain 
unabated--6,000 homes foreclosed in the last year; bankruptcies 
at an all-time high; job loss, unemployment skyrocketing. While 
the free downpayment has some appeal, do you believe, Mr. 
Secretary, that it is ideal in these economic times of economic 
constraints where people can get the downpayment and then lose 
the home?
    Secretary Martinez. That certainly would not be the long-
term goal.
    Ms. Carson. I know you do not plan to do that.
    Secretary Martinez. But I think that it is an ideal time 
because first of all we have historically low interest rates, 
and with that opportunity at hand, I think that it is a very 
opportune moment in which to do that. I think that this is a 
difficult economic moment, but I think as we look at all the 
different things that are being done to try to improve our 
economic condition, the president's proposals in that regard I 
think are designed to put more Americans back to work and to 
improve our economic condition. So I do not believe that this 
housing initiative should wait until things are perfect 
economically in every segment of the country because that may 
never be the case.
    Ms. Carson. Do you support the idea that is floating around 
Congress now of not foreclosing on people who are unemployed, 
through no fault of their own?
    Secretary Martinez. I am certainly in favor of the idea 
that foreclosures for our men and women in uniform who have 
been called to serve need to be stopped, and we have 
effectively done that through the Soldiers and Sailors Relief 
Act. In terms of broader policy in terms of foreclosure, I am 
not prepared to answer that because I have not studied all the 
implications of your question.
    Ms. Carson. Madam Chair, I yield back.
    Ms. Harris. Thank you.
    Mr. Capuano from Massachusetts.
    Mr. Capuano. Thank you, Madam Chair.
    Mr. Secretary, again, as everybody else, thank you for 
being here. I want to say just one thing about the program. I 
like the program. I like the concept. We will have 
disagreements--I do not think we are going to settle them 
here--as to how to fund it. I actually think it would be a 
great add-on. I am not so sure about a carve-out.
    Secretary Martinez. It is not a carve-out.
    Mr. Capuano. I understand that at this point in time, but 
we will see how it happens as we go down the road. I understand 
that may not be your preference, but it is the issue we have 
had in the past about it.
    I really wanted to come today to underline an issue that I 
believe Mr. Frank brought up during his opening statement that 
I wanted to make sure came to your attention. It has only 
recently come to my attention in Massachusetts relative to new 
interpretations of Section 8 certificates and how they are put 
out there. I do not think this is the appropriate place to go 
through the details. We will be contacting you for a later 
time, but I just wanted to make sure that you understand that 
it is a serious problem. Many of us think that it is an 
unnecessary interpretation of current law and we look forward 
to working with you to try to get people into homes as we think 
the program was intended.
    Secretary Martinez. Thank you, sir.
    Mr. Capuano. Thank you.
    Secretary Martinez. Ranking Member Frank did bring that up 
and we will be looking into it and be looking forward to 
responding to you and working with you on it.
    Ms. Waters. Madam Chair? I ask unanimous consent for 30 
seconds to ask the Secretary a final question.
    Ms. Harris. Yes, sure.
    Ms. Waters. What do we need to do to get CDBG and HOME and 
now this new program authorized? You know, none of this is 
authorized since 1993, 1994. There could be a point of order 
against this at any time on the floor.
    Secretary Martinez. Is that right? Well, I thought every 
year through the budget process that we got an authorization.
    Ms. Waters. No. This could go through the appropriations 
committee and there could be a point of order on the floor on 
any of this, including CDBG. Why don't we get some leadership 
to get this stuff authorized?
    Secretary Martinez. That is something--not being that 
familiar with all of your parliamentary intricacies, I was not 
aware of that and I am very concerned, now that you bring it 
up. So I will be giving that some thought and maybe get back to 
you.
    Ms. Waters. Thank you.
    Secretary Martinez. That is not a comforting thought.
    Ms. Waters. Thank you.
    Ms. Harris. Thank you.
    Mr. Secretary, thank you so much for your testimony today, 
for all of your help, for the great ideas, and we look forward 
to working with you and your staff in the future.
    Secretary Martinez. Thank you very much. It is a real honor 
to have an opportunity to not only testify before the 
committee, but to have it be chaired by you, my friend.
    Ms. Harris. Thank you, Secretary.
    And now we call the next panel.
    Chairman Ney. [Presiding.] I want to thank the gentlelady 
from Florida for running the hearing. We will move on to panel 
two. The first witness is Robert Couch. He is the president and 
CEO of the New South Federal Savings Bank in Birmingham, 
Alabama. It is the largest thrift in Alabama. The bank is one 
of the area's leading mortgage lenders. Mr. Couch is testifying 
today on behalf of the Mortgage Bankers Association, whose 
2,800 members include mortgage companies, brokers, commercial 
banks, thrifts, credit unions and life insurance companies. I 
want to welcome the witness.
    Darrell Griffin is Chief of the Housing Services Division 
for the city of Jacksonville, Florida. The Housing Division is 
located within Jacksonville's Planning and Development 
Department and is focused on expanding the availability of 
affordable housing for very low-and moderate-income families by 
leveraging state and federal funds with local resources. 
Welcome.
    Lori Gay is president of the Los Angeles Neighborhood 
Housing Services, a nonprofit lender, developer and neighbor 
revitalization corporation. Under her leadership, the 
corporation has developed and rehabilitated over 6,000 housing 
and commercial units and has educated and counseled 68,000 
homebuyers. I want to welcome you to the capitol.
    Paul Hilgers is the Director of the Neighborhood Housing 
and Community Development Department for the city of Austin, 
Texas, the Department which provides housing, community 
development and small business development services and is 
focused on expanding its partnerships with profit and nonprofit 
organizations in order to leverage all available resources. 
Welcome to the committee.
    Craig Nickerson is Vice President for community development 
and lending at Freddie Mac, a stockholder-owned corporation 
chartered by Congress in 1970 to create a continuous flow of 
funds to mortgage lenders in support of homeownership and 
rental housing. Mr. Nickerson has worked in the affordable 
housing area for more than 25 years, serving as the Executive 
Director of the city of Boston's Office of Housing and the 
National Director of Housing Rehabilitation at HUD. I want to 
welcome Mr. Nickerson.
    And the last witness is Barbara Thompson. She is Executive 
Director of the National Council of State Housing Agencies, a 
national nonprofit organization representing housing financing 
agencies in all 50 states and committed to increasing the stock 
of affordable housing nationwide. Housing finance agencies 
issue tax exempt housing bonds, allocate the low-income housing 
tax credit, and administer home investment partnership funds. I 
want to welcome Ms. Thompson.
    I want to thank the panel and we will begin with Robert 
Couch.

  STATEMENT OF ROBERT M. COUCH, PRESIDENT AND CEO, NEW SOUTH 
                      FEDERAL SAVINGS BANK

    Mr. Couch. Good afternoon, Mr. Chairman and members of the 
subcommittee. My name is Rob Couch. I am president and CEO of 
New South Federal Savings Bank in Birmingham, Alabama. I am 
here today as chairman-elect of the Mortgage Bankers 
Association of America. MBA members have played a large role in 
the success of today's housing market. Our members, who number 
2,600 nationwide, are involved in all aspects of real estate 
finance and constantly strive to develop policies and programs 
to enhance the sophisticated housing finance system the U.S. 
enjoys today.
    Mr. Chairman, I am pleased to offer MBA's hearty support 
for H.R. 1276, the American Dream Downpayment Act of 2003, and 
to commend Representative Katherine Harris for her recent 
introduction of the bill. H.R. 1276 will make grants to 
communities that are to be used only for downpayment assistance 
towards the purchase of single-family homes by low-income 
families who are first-time homebuyers. With this laudable 
goal, the American Dream Downpayment Act will help the 
homeownership rate keep growing. This program will help many 
more low-income Americans join the ranks of homeowners and it 
will help build communities. HUD estimates that 40,000 more 
families per year will be able to become homeowners under this 
program.
    Mr. Chairman, understanding where people want to live and 
in what type of neighborhood is the first step in mapping the 
patterns of growth for America in the decade ahead. The federal 
government's role should be to encourage local communities to 
adopt long-term comprehensive plans that will meet the demand 
for homeownership and other housing needs. The American Dream 
downpayment program will be another tool in the arsenal of 
communities to assist potential homebuyers as there is still 
much work to be done. The American Dream Downpayment Act 
represents an investment in those who have yet to achieve the 
dream of homeownership. The federal resources used in fostering 
additional homeowners will be returned many times over as 
families build wealth and communities fill with residents who 
have a stake in their neighborhoods.
    MBA believes offering downpayment assistance is the next 
logical step in reaching those who are not currently 
homeowners. The American Dream downpayment program will address 
one of the primary obstacles to homeownership for minorities 
and low-income families. That obstacle is the accumulation of 
funds to make a downpayment. By placing the downpayment program 
under the HUD HOME program umbrella, it is recognized that the 
strength of the HUD program lies in the fact that it empowers 
communities to identify needs in a locally created plan and 
then seek federal funds matched by local resources. One goal of 
the HOME program is to foster public-private partnerships, 
especially with lenders. In fact, HOME communities are strongly 
encouraged to engage lenders in local programs. The American 
Dream downpayment program will provide a perfect vehicle for 
engaging lenders. MBA was pleased to see funding for this 
program in the president's fiscal year 2004 budget as 
additional funding above the HOME program's regular funding.
    Mr. Chairman and members of the subcommittee, MBA looks 
forward to working with you to make this program a success. 
Thank you for allowing me the opportunity to testify today.
    [The prepared statement of Robert M. Couch can be found on 
page 59 in the appendix.]
    Chairman Ney. And the next witness is Ms. Gay.

   STATEMENT OF LORI R. GAY, EXECUTIVE DIRECTOR, LOS ANGELES 
     NEIGHBORHOOD HOUSING SERVICES, LOS ANGELES, CALIFORNIA

    Ms. Gay. Good afternoon, Subcommittee Chairman Ney and 
Ranking Member Waters. My name is Lori Gay and I am the 
president of the Los Angeles Neighborhood Housing Services, 
where I have worked for the past 13 years. We have been about 
the business of getting families into homes and keeping them in 
homes. I am here this afternoon to talk with you about the 
benefits of downpayment assistance for low-to moderate-income 
families and to support H.R. 1276.
    Let me first say a word about L.A. NHS. We have assisted 
more than 1.4 million families since 1984; developed and 
rehabilitated over 6,400 housing and commercial units; 
established 150 block clubs; and counseled over 72,000 
homebuyers; employing over 200 neighborhood youth; and 
investing more than $1.1 billion back into some of L.A.'s most 
troubled neighborhoods. We are now the largest comprehensive 
provider of affordable homeownership in Southern California, 
putting 42 families a day on the road to homeownership.
    We are a member of the Neighborhood Reinvestment 
Corporation's NeighborWorks Network. The Neighborhood 
Reinvestment Corporation strengthens communities and transforms 
lives across America by supporting innovative local 
partnerships of residents, business and government, 
collectively known as the NeighborWorks Network, and by 
advancing broader community development goals. In fiscal year 
2002 alone, the NeighborWorks system generated nearly $1.7 
billion of direct investment in more than 2,300 lower-income 
urban, suburban and rural communities nationwide. We assisted 
more than 35,000 lower-income families to purchase, improve and 
maintain their homes; provided pre-purchase and post-purchase 
homebuyer counseling to more than 72,000 families.
    NeighborWorks organizations also owned and managed 34,000 
rental units or mutual housing units. The corporation provided 
more than 188,000 contact hours for training participants and 
purchased more than $60 million in nonconventional loans 
through its affiliated secondary mortgage market operation. We 
also operate something called the Campaign for Homeownership 
Initiative. Since 1992, that campaign has assisted more than 
60,000 low-to moderate-income families to purchase their homes, 
52 percent of which are minority; 67 percent of which have been 
low-income.
    Just a few quick stories about our Los Angeles experience, 
which I believe may be helpful to you as you consider this 
bill. We assisted Jae and Naomi Beck in Los Angeles, who happen 
to be Korean. They purchased a home, not with $5,000 of 
assistance, but with $75,000 of downpayment and closing cost 
assistance in conjunction with the city of Los Angeles and the 
Los Angeles Neighborhood Housing Services revolving loan fund. 
That family was able to purchase a home and only spend $68 more 
for their mortgage than they were spending on rent at the time. 
They were able to purchase and rehabilitate a home in 
neighborhood where the wife and the family had grown up. We see 
that every day. Similarly, the Espinoza family did not use 
government-assisted grants, but in fact the Sears Corporation 
provided $25,000 of downpayment assistance so that that family, 
who was living in a hotel at the time, operating off of a hot 
plate to eat, had never had a Thanksgiving. They were able to 
purchase a home last December with the $25,000 in downpayment 
assistance.
    So what we have seen locally is that in fact the private 
and public sector cooperation really makes the difference, and 
in fact, Congresswoman Waters, it does take this layering that 
you mentioned and a comprehensive approach to affordable 
homeownership to make it happen. We believe the $5,000 of 
assistance that is projected per family will be of great 
assistance. It just won't be the only assistance needed in 
high-rent districts like Los Angeles or California statewide. 
We have ongoing issues which do require more subsidy.
    What I would also like to note is that we estimate that our 
national network will utilize about $10 billion in downpayment 
assistance funds next year alone. So we see this critical 
funding as essential to get the work done. We also feel it is 
our job and duty to protect and serve families throughout our 
communities by ensuring that sub-prime lending does not 
increase and that in fact if we are able to conventionalize 
families, wherever appropriate we should do that. Sub-prime 
lending and predatory lending are not the same thing, but in 
fact we have found that we have to look out for our families, 
financially educate them, and spend time making sure that they 
have the proper hand-holding to be successful.
    I would like to thank this committee for the opportunity to 
speak today about our work and the broader NeighborWorks 
network. The addition of a national downpayment assistance pool 
will greatly assist our work, but we do not want to just create 
more homeowners. We also want to make sure that they are 
financially educated and that they have sound mechanisms to 
build their wealth and transfer these intergenerational assets 
to their children over time.
    Thank you.
    [The prepared statement of Lori R. Gay can be found on page 
63 in the appendix.]
    Chairman Ney. I want to thank the witness for her 
testimony. Without objection, your written statements will be 
made part of the record. Of course, each of you will be 
recognized for a five-minute summary of your testimony. Hearing 
no objection, any written statements you have will be made part 
of the record. I also ask for unanimous consent to be given to 
allow the Consumer Mortgage Coalition to be able to submit 
testimony for the hearing record in support of the American 
Dream Downpayment Act. Hearing no objection, it will be part of 
the record.
    [The following information can be found on page 102 in the 
appendix.]
    Mr. Griffin?

 STATEMENT OF DARRELL V. GRIFFIN, SR., DIVISION CHIEF, HOUSING 
        SERVICES DIVISION, CITY OF JACKSONVILLE, FLORIDA

    Mr. Griffin. Good afternoon, Mr. Chairman and members of 
the subcommittee. My name is Darrell Griffin and I am the 
division chief with the city of Jacksonville's Planning and 
Development Department. I bring you greetings from Mayor John 
Delaney and Jeannie Fewell, who I am sitting on behalf of. She 
had a death in the family and was not able to speak, so I am 
sitting on her behalf. I am here today speaking in support of 
the proposed legislation, H.R. 1276.
    Before telling you about our fantastic homeownership 
programs we administer in the city of Jacksonville, allow me an 
opportunity to provide you with some demographic data about our 
city, which is located in southeast Florida. Jacksonville is 
approximately 840 square miles of land mass, with a population 
of 807,000 people. According to the 2000 census, Jacksonville's 
racial composition is as follows: 65.8 percent white; 27.8 
percent black; 4 percent Hispanic; and 2.4 percent categorized 
as other. There are 303,000 households in Duval County, of 
which 63 percent are owner-occupied. Of those owner-occupants, 
76 percent are owned by whites; 19 percent by blacks; 3 percent 
by Hispanic; and 4 percent are other nationalities. In 
Jacksonville, the area median income for a family of four is 
$55,400.
    The city of Jacksonville Planning and Development 
Department Housing Services Division's strategy to provide 
affordable housing is to encourage public and private 
partnerships to stimulate construction and reconstruction of 
residential properties, to increase and improve the supply of 
affordable housing. The Planning and Development Department 
administers several homeownership programs which are designed 
to encourage homeownership and make the purchase of a home 
possible for low-to moderate-income residents who are 80 
percent of the median income and below. The city of 
Jacksonville anticipates allocating from its 2004 funding $1 
million of its $3.8 million in home investment partnership 
program funds to our award-winning downpayment assistance 
program called the Headstart to Home Ownership or H2H program, 
and the new program, Home Purchase and Rehabilitation, 
affectionately called HOME-PAR. The H2H program has twice been 
awarded the Department of Housing and Urban Development's 
prestigious Best Practice Award.
    The H2H program targets qualified applicants whose income 
is 80 percent of the median income. H2H offers finance 
assistance up to $14,999 to provide downpayment and closing 
costs and principal reduction assistance to eligible families 
and individuals who currently do not own a home, but wish to 
purchase a home as their primary residence. Prospective 
homeowners may purchase any single-family housing unit, newly 
built or existing, including patio homes, townhomes or 
condominiums, located within the consolidated city of 
Jacksonville. In addition to meeting the income criteria, the 
applicant must have a minimum downpayment of $500.
    The maximum purchase price for one family unit for Duval 
County as of February, 2003 is $154,600. That is the maximum 
allowed under HOME in our area. Local lenders provide first 
mortgages for the purchase of the property. The lender will 
offer their funding at par market rate, without origination of 
discount points, and a 30-year fixed rate conventional loans 
and FHA-insured loans at a maximum loan-to-value of 97 percent. 
The city of Jacksonville will provide a subsidy in the form of 
downpayment and closing costs and principal reduction for the 
eligible persons. The amount of financial subsidies received 
will be based on the total household size and income. The 
city's financial assistance will be in the form of a second 
mortgage at zero percent interest and forgiven after five 
years, with repayment of the subsidy deferred to the end of 
that five-year term. All homes sold under the H2H program are 
inspected by licensed home inspection companies and must be in 
compliance with the Section 8 housing quality standards prior 
to closing.
    The goal of the HOME-PAR program, which is our second 
program, is to encourage and support homeownership and 
revitalization within the Mayor's intensive care neighborhoods 
and target areas in which adopted neighborhood action plans 
have been implemented. Implemented in March, 2003, the HOME-PAR 
program offers financial assistance up to $25,000 to families 
and individuals with 80 percent of the median income who wish 
to acquire and rehabilitate sub-standard homes which after 
rehabilitation will become their primary residence. Like the 
H2H program, the city's subsidy may be used for downpayment and 
closing costs and principal reduction.
    In addition, funding may be used to provide gap financing 
when the cost to acquire and renovate the home exceeds the 
after-rehab appraised value. The applicant has a minimum 
downpayment of $500 and again, the lender will provide 97 
percent loan-to-value. The city subsidy will be in the form of 
a second mortgage, not to exceed 120 percent loan-to-value.
    Chairman Ney. Excuse me, sorry to interrupt, but the time 
has expired. If you would like to conclude, and then we can 
accept the rest written for the record.
    Mr. Griffin. Yes, I would like to. Homeownership is the 
largest and in many cases the only source of wealth-building 
for most families and individuals, especially to the 
prospective homebuyers we target at 80 percent of the median 
income and below. Successful revitalization of Jacksonville's 
intensive care neighborhoods and neighborhood action plan areas 
demonstrate that public funding delivered to homeownership in 
neighborhoods as part of a well-organized reinvestment strategy 
can leverage private financing and other valuable resources to 
produce lasting benefits, physical, economic and social. 
However, it is imperative to continue Federal and State funding 
to sustain a base of capital investment and program delivery to 
ensure the continued success of these programs and initiatives.
    [The prepared statement of Darrell V. Griffin Sr. can be 
found on page 73 in the appendix.]
    Chairman Ney. Thank you.
    Mr. Hilgers?

 STATEMENT OF PAUL HILGERS, DIRECTOR, NEIGHBORHOOD HOUSING AND 
    COMMUNITY DEVELOPMENT DEPARTMENT, CITY OF AUSTIN, TEXAS

    Mr. Hilgers. Thank you very much, Mr. Chairman and members 
of the subcommittee.
    My name is Paul Hilgers, and I am the Director of the 
Department of Neighborhood Housing and Community Development 
for the city of Austin, Texas. I am honored to have the 
opportunity to testify before you today regarding H.R. 1276, 
the American Dream Downpayment Act. Being from Texas, I am 
particularly honored to be here in the shadow of the picture of 
former Chairman Henry B. Gonzalez. I had to mention that.
    My testimony today is to summarize the written testimony 
provided to you, and I appreciate your accepting that. It 
provides an overview of our locally developed comprehensive 
housing investment strategy, and how using the tool of 
downpayment assistance as one element in that strategy has 
improved our ability to assist low-and moderate-income families 
in becoming homebuyers, many for the first time.
    The written testimony describes in a little more detail the 
city of Austin's housing continuum, which is an investment 
strategy which allows for collaborations and partnerships, the 
SMART housing program, which is a locally designed program 
designed to eliminate regulatory barriers to housing 
production; how the city of Austin has increased its 
investments from local general fund revenue; and the creation 
of our Austin Housing Finance Agency. All of those initiatives 
have created a toolbox to address the needs of all levels of 
our housing continuum.
    In Austin, we also believe that homeownership is an 
integral part of the American Dream that is out of reach for 
many low-income families because of the high cost of single-
family, owner-occupied housing. H.R. 1276 is a step in the 
right direction to address this reality. It is a step in the 
right direction because it provides the additional resources 
for cities like Austin to provide downpayment assistance to 
families to purchase a home. Oftentimes, this is the major 
barrier to families owning their first home. I support the $200 
million in funding requested in H.R. 1276, and it is important 
that this legislation add $200 million to the HOME program and 
that it is not a set-aside. I cannot express enough the 
importance of the HOME program to my city and others in 
providing the flexibility and resources to fill the gaps in 
funding for our downpayment assistance program and other 
affordable housing initiatives.
    I believe strongly in the delivery system established by 
the Community Development Block Grant and HOME programs. These 
programs allow local governments to design the kind of 
innovative programs you have heard about today, and to make 
local decisions about how the funds should be used to impact 
the most significant needs within their communities.
    The city of Austin's downpayment assistance program is 
designed to meet its economic realities. It provides deferred 
zero interest loans to assist with downpayment assistance and 
closing costs. The loan is non-amortized, non-assumable, non-
interest-bearing, and secured by a lien on the property. The 
loan is repaid at the time the owner sells the home, 
refinances, pulls equity from the property, transfers title or 
moves out of the property. Repaid funds are used to help future 
homebuyers in the program. H.R. 1276 would help the city 
provide more resources to assist families with their 
downpayment assistance needs through this highly successful 
program. In the past five months, an average of five families a 
week have become homeowners through our program. In the past 
three years, we have helped 619 households through our 
downpayment assistance programs.
    Briefly, by way of recommended improvements for the 
committee to consider, I would recommend that H.R. 1276 be 
expanded to include pre-purchase counseling. That issue has 
been discussed here today, and if we could establish 10 percent 
as an amount of funds available to local communities to be able 
to use those funds for pre-purchase counseling to ensure that 
they fully understand every aspect of the process and what it 
means to maintain homeownership. H.R. 1276 could also be 
amended to allow up to 10 percent for administrative costs. To 
ask HOME staff and administrative cost limits to absorb the new 
effort may under cut its success. I also respectfully request 
the subcommittee to examine the current Uniform Relocation Act 
provisions and the potential disincentive to first-time 
homebuyers since they are triggered with the very minimal 
amount of homebuyer assistance that could be possible through 
this program.
    Finally, I support the legislation because it brings 
attention to the need for affordable housing assistance, even 
if it is just the downpayment assistance component. Federal 
leadership is needed badly for us at the local level trying to 
implement these programs. I would urge you, Mr. Chairman, and 
other members of the subcommittee to continue to pursue 
affordable housing assistance in other areas, such as providing 
additional funding to HOME for housing production and the other 
activities that come before this committee.
    I thank you again for the opportunity to testify.
    [The prepared statement of Paul Hilgers can be found on 
page 77 in the appendix.]
    Chairman Ney. I thank the witness and appreciate your 
coming from Austin, and also recognizing Congressman Gonzalez. 
I had the pleasure of serving a couple of years when he was 
here, and also one of your other former residents actually has 
moved down the street a couple of years ago to a little bigger 
house.
    Mr. Hilgers. Yes, I understand that. Thank you, sir.
    Chairman Ney. Mr. Nickerson?

  STATEMENT OF CRAIG S. NICKERSON, VICE PRESIDENT, COMMUNITY 
      DEVELOPMENT AND LENDING, FREDDIE MAC, WASHINGTON, DC

    Mr. Nickerson. Good afternoon, Chairman Ney and Ranking 
Member Waters, and Congresswoman Harris and members of the 
subcommittee. I am delighted to be here on behalf of Freddie 
Mac. My name is Craig Nickerson. I am Vice President of 
Community Development lending at Freddie Mac.
    This is a matter that I take a genuine interest in. It is 
part of what I have been doing for actually over 30 years now. 
I think your bio said 25. It is either an old bio or I am just 
getting older, or both. This is also, though, an issue that is 
very important to Freddie Mac. It is what we do. We are a 
shareholder-owned corporation chartered by Congress back in 
1970, designed to create a continuous stable flow of capital 
back to the local markets. By purchasing mortgages from 
lenders, we increase market liquidity. The result of that is 
interest rates are lower, mortgage money is more plentiful. It 
allows us to create more flexible products, including products 
that can be offered on very low downpayments, and has in part 
been one of the reasons we have such a high homeownership rate 
in America.
    More needs to be done. More needs to be done by Freddie Mac 
and by the entire industry. The gap between the overall 
homeownership rate or the white homeownership rate and minority 
homeownership rates is unacceptable. We need to do more. That 
difference is not just a function of demographics or income 
levels. Even if you separate out for lower incomes, or for 
example the age of households being younger, that difference 
cannot be explained away. We need to be doing more to increase 
homeownership opportunity for minority families.
    Part of that is a lack of an ability to save, when you are 
focused on meeting life's necessities. Part of it is the lack 
of intergenerational--parents providing capital so someone can 
buy their own home as a young family. Homeownership is much 
more than what we have discussed today. It is much more than 
just a very vital means of stabilizing communities, a means of 
creating family security and a sense of well-being. As 
indicated earlier by both Chairman Ney and Ranking Member 
Waters, it is also a very important means of accruing wealth in 
America. It is the most important means of accruing wealth. Let 
me cite just one statistic to underscore that. Case in point: 
the median wealth of low-income and minority homeowners in 
America right now as of 2001 was $70,000. That is the net 
wealth. The low-income median wealth for low-income renters, 
$900--$70,000; $900. We simply need to be focused more on this 
issue.
    For our part, what is Freddie Mac doing? Well, we are doing 
a number of things. Last year, we created something called 
Catch the Dream. We are very proud of it. It is a very 
comprehensive new approach to try to meet specifically the 
needs of minority homebuyers in America. We are focused on 
mortgage products, certainly--flexible mortgage products--but 
also on more innovative ways of reaching out to the community, 
meeting their needs; not waiting for them to come to us. We are 
focused on financial literacy and better educational tools, and 
we are focused on using technology in creative new ways.
    But despite how proud we are of Catch the Dream and our 
efforts to support the Administration's blueprint for the 
American Dream, we know much more needs to be done. We do 
believe the American Dream Downpayment fund is a very important 
shot in the arm for the industry and its entire effort. Let me 
suggest just three brief reasons why we think this new fund can 
add significant value. First, it does in fact address one of 
the key barriers to homeownership--the lack of cash for 
downpayment and closing costs. That is both a real problem and 
a psychological problem. To the extent families save a few 
dimes, a few dollars every week, it is a daunting challenge to 
invest those hard-earned funds in downpayment and closing costs 
and not have any safety net after you are done making that 
investment for that rainy day, for that time when you need some 
extra capital. The Wharton school has recently indicated that 
notwithstanding high housing costs in many markets, that the 
downpayment is three times more constraining than the monthly 
mortgage payment as a barrier to homeownership.
    The second reason we think this is a good idea is that this 
program can be implemented quickly. The American Dream 
downpayment fund, because it is part of the HOME program, will 
allow these participating jurisdictions to implement without 
having to understand new regulations and adopt them. Having 
worked at the local level and at the federal level, I know from 
experience that it takes years to adapt and develop and 
understand new program regulations. Even the HOME program back 
in the early 1990s, it took years before we saw any significant 
volume. Given the design of this fund, making it a part of the 
HOME program, ensures flexibility, but also an understanding so 
that we can adopt the program quickly.
    And then lastly, this program provides focus. Because it is 
focused explicitly on first-time homebuyers and those with 
incomes below 80 percent of median income, we think it is 
targeted to the very constituency that needs the money the 
most.
    So in conclusion, let me suggest that Freddie Mac does 
support the American Dream downpayment fund. We think it is a 
very important new tool in our homebuyers assistance tool kit 
that will help revitalize more communities; help lenders 
leverage their dollars; and most importantly, put more 
underserved families and minority families on the path to 
homeownership.
    Thank you.
    [The prepared statement of Craig S. Nickerson can be found 
on page 88 in the appendix.]
    Chairman Ney. Thank you.
    Ms. Thompson?

  STATEMENT OF BARBARA THOMPSON, EXECUTIVE DIRECTOR, NATIONAL 
               COUNCIL OF STATE HOUSING AGENCIES

    Ms. Thompson. Chairman Ney, Ranking Member Waters, 
Congresswoman Harris, thank you for having me here today and 
good afternoon to you.
    I am Barbara Thompson, Executive Director of the National 
Council of State Housing Agencies. CSHA represents the Nation's 
State housing finance agencies. State HFAs issue tax-exempt 
bonds, allocate the low-income housing tax credit, and 
administer HOME funds in nearly every state. Every year, they 
help tens of thousands of lower-income families buy their first 
homes.
    NCSHA is very grateful to the Congress and to the 
Administration for your support of affordable homeownership. We 
agree more must be done to expand homeownership, particularly 
among low-income and minority families. In this spirit, we 
support the goals of the Administration's homeownership agenda. 
However, we do not support the creation of the American Dream 
Downpayment Initiative within HOME. State HFAs are devoted to 
making low-income families homebuyers. Essential to their 
efforts is the mortgage revenue bond program. State HFAs have 
issued $170 billion in MRBs to finance 2.3 million below-market 
rate mortgages for lower-income families. Each year, they help 
another 100,000 low-income families become homebuyers.
    In addition to using MRBs to reduce monthly costs, HFAs 
also use MRBs to overcome the downpayment hurdle that many low-
income families face. State HFAs also provide many other forms 
of downpayment and closing costs assistance, soft second 
mortgages, lease-to-own options, acquisition, rehab and 
construction financing, and homebuyer education and counseling. 
They do these things to help families not only attain, but to 
sustain homeownership. HFAs use many resources to finance these 
activities. One of the very most important is the HOME program. 
NCSHA is grateful for Congress' support of MRBs and HOME and 
other resources upon which they rely to provide homeownership 
help. Congress has steadily, though modestly, increased HOME 
funding. It recently increased by half the bond cap.
    The most significant step Congress could take to expand 
low-income homeownership is to repeal the 10-year rule and 
update MRB purchase price limits. The 10-year rule costs states 
$3 billion in mortgage money annually. Ohio loses $450,000 a 
day; California, $1 million. Eighty-two percent of the Congress 
cosponsored the bill that contains these changes last year. 
This year, it is H.R. 284. We urge you to cosponsor this bill. 
We thank you, Mr. Chairman, for your early cosponsorship. We 
urge you all to cosponsor and help enact it this year.
    NCSHA does not support a separate homeownership program 
within HOME. Congress designed HOME as a block grant to allow 
States and localities, not Washington, to decide how to best 
meet their needs. Allocating funding within HOME for a single 
Washington-prescribed purpose irrespective of state and local 
judgment of need is contrary to the purpose and spirit of HOME. 
States already can and do use HOME funds to support 
homeownership. In fact, they have used HOME funds to support 40 
percent of all HOME-assisted units. Congress does not need to 
create a separate pot of money within HOME to help more 
families become homeowners through HOME. It need only increase 
HOME funding. This subcommittee could help most by 
substantially increasing the authorization for HOME and working 
with appropriators to assure its increased funding. HOME just 
finally achieved in fiscal year 2003 funding equal to its 1990 
authorization level of $2 billion.
    Some argue the proposed $200 million for the downpayment 
program is new money--funding that Congress would not otherwise 
allocate to HOME. We believe a dollar available for downpayment 
is a dollar that Congress could invest in HOME without 
restriction. We are also deeply concerned Congress would fund 
the downpayment program this year or in future years within 
HOME's current or even a reduced HOME appropriation. The 
subcommittee tried and we appreciate your efforts to protect 
against this outcome last year in H.R. 3995, but with all due 
respect, the language you wrote would not have prevented 
appropriators from reducing state and local HOME funding or 
foregoing HOME funding increases to finance the downpayment 
program.
    If you authorize downpayment assistance within HOME, we 
urge you to direct HUD to base funding allocations on need, and 
not also on a jurisdiction's prior homebuyer commitments. Why 
should jurisdictions that directed scarce housing dollars to 
meet other affordable housing needs they judged more urgent be 
penalized under this program?
    We urge you to reject the downpayment set-aside. We 
encourage you to work instead to enact other initiatives that 
would have a much greater impact on low-income homeownership 
without threatening the very successful HOME program.
    Thank you.
    [The prepared statement of Barbara Thompson can be found on 
page 93 in the appendix.]
    Chairman Ney. I want to thank the witness. I also want to 
note Mr. Couch has a commitment which he will have to be 
excused to leave. If there are any questions of Mr. Couch, they 
can be put in writing and you could respond, if you so wish.
    Mr. Couch. I would be glad to do that, Mr. Chairman.
    Chairman Ney. Thank you.
    Mr. Couch. Or I can respond now. I have got a few minutes.
    Chairman Ney. I know you have got----
    Mr. Couch. I appreciate the indulgence.
    Chairman Ney. You can go ahead and go. Thank you.
    Mr. Couch. Thank you.
    Chairman Ney. I appreciate it.
    I have got a question, but before I ask the question, I 
have been talking with Ms. Waters, the ranking member, and I 
think we ought to explore about some cases of no-downpayment. I 
think that it is worth exploring. We were just having some talk 
about it, and I would like to see if we could work on that.
    The question I have, first of all, I wanted to ask Ms. 
Thompson, because I talked to OHFA today, Ohio Housing Finance 
Agency. Actually, I called them and then they called me back 
and they asked me the question, would they be able to 
administer the fund for the American Dream. Do you have any 
comment?
    Ms. Thompson. Well, it is up to the Governor of each State 
as to what agency administers the HOME program. I would assume 
the way you would write this bill would be to allow that 
discretion. I would assume most Governors would choose the HOME 
administrating agency, which in the case of Ohio is not the 
HFA, but obviously the Governor I would assume, Mr. Chairman, 
could change that.
    Chairman Ney. The Governor could change that.
    Ms. Thompson. Yes.
    Chairman Ney. The other thing I wanted to ask you is, you 
know, you have the worry about detracting from the HOME 
program.
    Ms. Thompson. A serious worry, yes.
    Chairman Ney. But the Secretary did testify earlier, it is 
new money. That still gives you heartburn?
    Ms. Thompson. Mr. Chairman, with all due respect to the 
Secretary and to you, you have no control over what the 
appropriators finally do on this. The Administration itself, as 
you know, just three years ago----
    Chairman Ney. Not to interrupt, but we deal with that in 
every case.
    Ms. Thompson. I know you do. But if I could just say this, 
when they first proposed this program, this $200 million in the 
fiscal year 2002 budget, they did propose it as a set-aside 
within the current HOME appropriation. They moved away from 
that because of opposition, frankly, to that approach from our 
group and others. I would ask you, how would you control the 
appropriators from doing just that, in this very tight budget 
environment, from taking flexible State and local money to fund 
this program? They managed to come up with $75 million, not 
$200 million last year, without doing that. But would they be 
able to do that in this budget environment this year? Who 
knows? We are rolling the dice.
    I would also suggest to you that it is not just a matter of 
setting aside existing State and local HOME funding. This is a 
program, HOME, that is enormously successful and that needs 
more funding. Therefore, we would argue any dollar that you put 
into this new program, which in our view is not necessary 
because you can do downpayment now with HOME, any dollar you 
put into that is a flexible dollar that you deny states and 
localities.
    Mr. Chairman, as important as homeownership is, what if a 
community judges that they desperately need a transitional 
housing property for homeless people? What if they judge they 
desperately need a low-income rental property? You are taking 
away that choice by forcing them to use it for homeownership 
assistance, whether that is their priority need or not.
    Chairman Ney. Thank you.
    A question I have for Ms. Gay, I fully understand that the 
needs of the residents of Los Angeles are very, very different 
than other markets and very different than the area that I 
have. So what type of local flexibility do you think you would 
need in a national downpayment assistance program, due to the 
situation of the higher prices, et cetera?
    Ms. Gay. If you added the money to our locale, I think that 
what it would do is leverage the number of buyers potentially 
that could be assisted. If it is a flexible dollar, as was 
noted by Ms. Thompson, the only concern someone like me would 
have is that it might get used for things other than 
homeownership, and we are trying to increase the number of 
minorities and low-income families who participate in our city 
in the homeownership dream. So if you said to our city through 
this bill in some way that they had another $50 million a year 
to spend, just a nice fat number, I think that that would add 
another 3,000 or 4,000 people, and that is the way we would 
look at it.
    Chairman Ney. Anybody generically might want to answer this 
from the panel. What type of outreach programs do you think 
would have to be put in place or enhanced, to let people know 
about the downpayment assistance programs? Any thoughts on 
that?
    Ms. Thompson. Mr. Chairman, I would say that that is in 
place. It is amazing what states and localities and their 
nonprofit partners are already doing in this area. The issue is 
not the need for a new apparatus, for a new program. The issue 
is resources.
    Chairman Ney. But my question I am trying to focus on--I 
appreciate that, but I am trying to focus on, let's say that 
this passes today, hypothetically, are there additional things 
we need to do on outreach for American Dream? Mr. Nickerson or 
Ms. Gay?
    Ms. Gay. I was going to say, Mr. Chairman, that one of the 
pieces of the story I did not give on the Becks was that word-
of-mouth referrals tend to work almost best in our communities. 
We had 3,200 Korean families walk into our offices in two weeks 
when the Becks went on television for 60 seconds. So the kind 
of outreach mechanisms that are available through many 
community partners I think will get the word out, if people 
know that they really have a chance. That is the issue--do I 
really have a chance to buy the home, or is it a gimmick? If we 
can get a message out that entrusts people into this game, that 
in fact they think they can really participate, we will be 
successful.
    Chairman Ney. My time has expired. I appreciate your 
answer. I also want to note that just about a week ago, 
somebody happened to be down by our district office in St. 
Clairsville, and was walking by and said hello. I said, What 
are you doing? He said, I am going down to look at a house. I 
said, Is it your first home for you and your wife? He said yes. 
I said, Have you called FirstTime homebuyers? And he said, What 
is that?
    You know, it is very interesting that a lot of people do 
not know about it, so I think word-of-mouth would help, but I 
also want to be sensitive to the fact that if we have another 
program, to make sure that the outreach mechanisms are also 
there advertisement-wise or financial institutions, whoever is 
involved.
    Ranking member, Ms. Waters?
    Ms. Waters. Thank you very much, Mr. Chairman.
    As you know, my initial concern has been duplication of 
effort under a new name and wondering why. Let me just ask, 
even though the Secretary said that the local jurisdictions 
could decide how much money they spend on downpayment, even 
though it seems as if $5,000 is some kind of amount that has 
been used in the past and may be something that is being 
suggested. How many jurisdictions would spend $25,000 instead 
of $5,000?
    Mr. Griffin. In Jacksonville, our objective not only is for 
homeownership, but also neighborhood revitalization. At times, 
you are going to need more than just $5,000 toward downpayment. 
I did not get a chance to finish my presentation, but 
oftentimes, especially in acquisition and rehabilitation 
programs, the costs to acquire and rehabilitate the home 
exceeds the appraised value. Therefore, there has to be some 
type of entity, and generally it is the city or some funding 
agency, that would bridge that gap. In other words, if you 
acquire a home for $20,000, renovate it for $50,000; $70,000 is 
what you have, but it may only appraise at $60,000. So we have 
to bridge that gap. That is called a development subsidy.
    In addition to that, we also may have to bridge what we 
call an affordability gap. Using those same numbers, the 
applicant may only qualify for $50,000. So that is another 
$10,000 in subsidies. So you combine the two, and you have 
$20,000. So there it is very likely, especially in our city and 
in the areas that we service, that you will exceed that $5,000.
    Ms. Waters. What about Los Angeles, Ms. Gay?
    Ms. Gay. I think the $75 million is the number that we have 
been able to get through our council. All I keep hearing, we 
have created our own housing trust fund now at $100 million a 
year. We have been saying, just get us more resources--an 
increased HOME allocation. If you target it, I do not know that 
advocates would be against that. The issue just becomes, we are 
going to cap the amount at some point and $75 million is the 
number that I have been told by every council member is as far 
as they think they will go.
    Mr. Hilgers. In Austin, what we would do is add the $5,000 
to a layering strategy, if it was $5,000, to add to additional 
HOME dollars, additional mortgage credit certificates and 
whatever other creative financing mechanism we could add to it. 
We also, when it comes to larger subsidies for mortgage write-
down, our concern at the local level is the ability for that 
family to stay in the home. So we do that kind of mortgage 
write-down through our community housing development 
organization, so that our nonprofits are able to work with the 
families on a longer-term basis so that we are more confident 
that they would be able to maintain that home.
    So the general public who is looking for homes at the more 
moderate income levels, the idea of our structure is to invest 
in those people according to their need. If all they need is 
$3,000 to $5,000 or $5,000 to $10,000--whatever that might be--
then that could be available to them. Our problem has been the 
production side, there has not been housing available in the 
last few years to meet the demand. So we have to attack it on 
all of those different levels, but specifically if we could 
have an extra $5,000 from this program, then it would free up 
$5,000 from our HOME allocation, not to argue against the 
perfect, which would be an increased HOME allocation.
    Mr. Nickerson. I think the key here, congresswoman, is that 
that discretion is available to the locality or the state that 
is receiving the money. So in Los Angeles, your elected 
officials within the city and the Los Angeles Housing 
Department could determine whether it is $1,000, $5,000, or in 
your instance many times more than that, given the high cost of 
housing in the city. That local discretion is essential, rather 
than it being prescribed by HUD or by Congress.
    Ms. Waters. Ms. Thompson?
    Ms. Thompson. First of all, it would be very important to 
assure that the legislation was written in a way that HUD knew 
it could not put artificial limits, as it so frequently does on 
programs, to have the kind of flexibility that Craig is 
describing. In addition, I agree with the city of Austin that 
that is not going to be enough to make homeownership happen in 
very high-priced housing markets. You are going to need to 
layer with other things. In fact, I would argue one of the 
beautiful things about the existing HOME program, and not this 
separate set-aside or separate program, whatever we are calling 
it, is that you can do all kinds of things--soft second 
mortgages, closing costs; you can layer that with MRB 
financing. Whereas I guess we are just talking about 
downpayment assistance, which is not going to solve the whole 
problem, and certainly not in your district.
    Ms. Waters. Thank you very much.
    Chairman Ney. Thank you.
    The gentlelady from Florida?
    Ms. Harris. Thank you, Mr. Chairman.
    I suppose in closing, since we are the last ones, I just 
wanted to thank the panelists for traveling so far and giving 
so much pertinent information. I love to hear the success 
stories. It is really encouraging. It makes me feel like we are 
on the right track with this. I think if you just look at what 
we have said before--the dignity, the stability, the economic 
empowerment, the wealth creation that homeownership creates is 
a goal that we should all strive for. In this unique economic 
environment, with low interest rates, if we have a chance for 
this augmentation of funds, if we can infuse more with the 
prioritization of purchase of those first homes for low-income 
buyers, I think it is going to be an extraordinary opportunity, 
not only for tens of thousands that we are projecting in this 
bill, but as the president has advocated, millions.
    So if we can truly get focused in that arena, I think that 
is very vital, and that we do not just get bogged down in the 
lack of perfection, but let's focus on how we can really make 
some good things happen with this. There are opportunities from 
what we have heard today. I concur that I do want to see that 
the past effort's issues are evaluated, because so many local, 
private and State groups may be focused on that. But the issue 
of homeownership is still there, and really vital and makes 
such a dramatic difference from educational levels, lifestyles, 
quality of life and issues for the rest of the people's lives 
that it affects.
    So I just want to thank you all for your input, for your 
interest, and for being here today. Thank you.
    Chairman Ney. Thank you.
    Any further questions of the witnesses? I want to thank you 
for a very important hearing. We appreciate you coming to the 
Capitol. Thank you.
    Also, without objection, the opening statement of--I defer 
to the ranking member.
    Ms. Waters. I ask unanimous consent to submit my opening 
statement to the record.
    Chairman Ney. Without objection.
    The chair notes that some members may have additional 
questions for this panel which they may wish to submit in 
writing. Without objection, our hearing record will remain open 
for 30 days for members to submit written questions to these 
witnesses and place their response in the record.
    This hearing is adjourned.
    [Whereupon, at 4:35 p.m., the subcommittee was adjourned.]







                            A P P E N D I X



                             April 8, 2003



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]







</pre></body></html>
